<html>
<title> - DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                       WEDNESDAY, APRIL 29, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:38 p.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Lisa Murkowski (chairwoman) 
presiding.
    Present: Senators Murkowski, Alexander, Cochran, Blunt, 
Hoeven, McConnell, Daines, Cassidy, Udall, Leahy, and Reed.

                    ENVIRONMENTAL PROTECTION AGENCY

STATEMENT OF HON. GINA MCCARTHY, ADMINISTRATOR
ACCOMPANIED BY DAVID BLOOM, ACTING CHIEF FINANCIAL OFFICER

              OPENING STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Good afternoon. We'll call to order the 
Appropriations Subcommittee on Interior, Environment, and 
Related Agencies. Welcome to all.
    I apologize for our late start. I was in another 
appropriations hearing with the Secretary of Homeland Security 
trying to secure an icebreaker, so I'm sure that you would 
understand.
    Administrator McCarthy and members of the subcommittee, 
thank you for your indulgence here this afternoon. We are here 
to examine the fiscal year 2016 budget request for the 
Environmental Protection Agency.
    Administrator McCarthy, I appreciate the time that we were 
able to spend in my office last week talking about some of the 
priorities that I have. I think it was constructive dialogue, 
and I look forward to that today. I also appreciate your 
commitment to ask the Deputy Administrator to convene a senior 
Environmental Protection Agency (EPA) team to sit down with me 
and my staff to see if we can't make some progress on some of 
the issues that are outstanding, and some of them more high 
profile than others, but issues that are of significance to my 
State and important within EPA's operations.
    Mr. Bloom, welcome to the subcommittee to you.
    Today's hearing comes at a critical time for two of the 
EPA's most controversial proposals, the rulemaking to redefine 
what the EPA will regulate under the Clean Water Act and the 
proposed rule for existing power plants under section 111(d) of 
the Clean Air Act.
    The EPA's proposal to redefine what they will regulate 
under the Clean Water Act was recently sent to the Office of 
Management and Budget (OMB) for final review. It's expected to 
be released pretty soon. Just last week, Administrator McCarthy 
reiterated that the final power plant rule, which will require 
dramatic changes to our electricity sector, will be finalized 
by midsummer.
    I am concerned, and I've expressed this to you, 
Administrator McCarthy, about these proposals. The EPA's 
proposal to change the definition of waters of the United 
States under the Clean Water Act has been described by some as 
a simple clarification, but in reality, the change will 
substantially increase the EPA's regulatory reach and will 
likely subject countless new projects to permitting 
requirements that I think will be very hard to satisfy.
    Roughly two-thirds of the State of Alaska is already 
considered wetlands, and the rule has potential to engulf even 
more of our State. I have described the water rule as a 
potential showstopper for new development in Alaska. I continue 
to have serious concerns as we near the final rule's release 
date.
    The EPA's efforts to regulate existing electric power 
plants will increase energy prices and negatively impact the 
economy in Alaska and throughout the United States. The same 
can be said about a companion rule addressing new power plants. 
And in spite of the fact that the EPA released a preemptive 
legal justification for its actions, there does remain a 
legitimate question about whether the EPA is acting outside its 
legal authority to enact this policy.
    I am particularly concerned about the EPA's treatment of 
Alaska in the Clean Power Plan. Not only has EPA failed to 
present a clear rationale to support the application of this 
Clean Air Act proposal to Alaska, it even failed to evaluate 
the impacts of the proposal to the State. And this lack of 
analysis is very troubling, because we lack this interconnected 
grid that the EPA cites as the key to maintaining reliable and 
affordable electricity.
    You have stated Administrator, that the final rule will 
include substantial flexibilities, but this is a really tough 
one for us. We're trying to figure out how, in Alaska, even 
with the level of flexibility, there could be a reasonable path 
forward. So again, this is an issue of considerable concern.
    These are just two of the issues that are being brought to 
my attention on a consistent basis within and beyond Alaska. On 
a national level, I continue to hear about EPA's efforts on 
ozone, methane, and hydraulic fracturing. This is just a few of 
them. Up in the State, I'm consistently hearing a message that 
the EPA is overstepping in its appropriate role.
    We touched briefly on a laundry list of issues that, while 
not receiving the same level of scrutiny as the Clean Water Act 
or the power plant rules, these are of tremendous importance, 
and we have to address them. We discussed the need to find a 
workable solution for small, remote incinerators that are the 
only option to deal with solid waste in some areas in the State 
and back up diesel generation concerns. We know that those 
continue to be an issue.
    We agreed upon the need for a workable solution for the PM 
2.5 problem in Fairbanks and to find a fix so that EPA can 
continue to help. We have issues as it relates to back haul in 
our rural villages. We talked about the need to deal with our 
abandoned oil tanks, the contaminated lands, the sensible 
option to dispose of fish waste. Some of this is so very 
parochial, but these are issues that consume residents.
    As I shared with you last week, Alaskans are ready to find 
some commonsense solutions to protect our environment, but we 
need the Federal Government to recognize some of the unique 
challenges that we face. So we're willing to work with the EPA 
to find solutions, but we need to be working and talking 
together.
    When it comes to budget request, as I noted in all of the 
Interior Subcommittee hearings, the President's budget was 
written without regard to the spending limits that Congress is 
compelled to operate within. Because that's the case, the 
President's budget requests substantial funding increases for 
some programs that I believe are unrealistic given the budget 
environment.
    The EPA's request is no different in that regard. The 
budget requests an increase of $451 million, approximately 6 
percent above the enacted level for fiscal year 2015, even 
though we don't expect to have substantially more money this 
year. We all know that. Beyond the overall increase, I'm 
concerned about the specific areas the budget request proposes 
to increase and to cut.
    The budget requests approximately $239 million to fund the 
President's climate change agenda. This is an $80 million 
increase from last year's enacted. The budget requests money to 
hire additional attorneys to defend controversial rule makings 
that States and others argue are unlawful. It also requests 
additional money to expand a hydraulic fracturing study far 
beyond what Congress has envisioned when EPA was directed to 
study the topic 5 years ago.
    At the same time we see these funding increases, the EPA 
proposes eliminating important programs to protect against 
radon exposure. This is the second leading cause of lung cancer 
behind smoking. And it proposes to reduce funding for grants to 
clean up some diesel emissions.
    I would suggest some of the Agency's choices are troubling. 
It is my hope that this subcommittee will be able to find a way 
to fund on the ground clean-up work while reducing what many of 
us believe very strongly to be the agency's regulatory 
overreach.
    Administrator, I thank you for being here today and for the 
very direct conversations that we are able to have on issues 
that are possibly and probably contentious. We've got to be 
working together to resolve them.
    With that, I turn to my ranking member, and look forward to 
your testimony.

                     STATEMENT OF SENATOR TOM UDALL

    Senator Udall. Thank you, Chairwoman Murkowski, and good 
morning and welcome--or good afternoon. I'm a little behind 
here. Welcome, Administrator McCarthy. Great to have you here 
today, and thank you for joining us as we discuss the fiscal 
year 2016 budget request for the EPA.
    This is a pivotal time for your agency. That's clear. 
You're talking on tough issues, environmental protection, air 
quality, water quality, and climate change. It's also clear 
that many of these issues are controversial. But let's remember 
our landmark environmental laws, the Clean Air Act, the Clean 
Water Act, the Endangered Species Act, were controversial, too, 
but folks on both sides worked together, and they got the job 
done. I'm hopeful that we can do the same with bipartisan 
solutions that move us forward instead of using controversial 
riders that hold us back.
    We need to make critical changes to improve the quality of 
air we breathe and the health of the environment. We can't wait 
another decade or two. I know making these changes won't be 
easy, but American innovation is legendary and limitless. In 
particular, I think it's time to channel that innovation into 
finding solutions to stop and even to begin to reverse the 
effects of climate change. So I'm pleased the EPA's budget 
request for fiscal year 2016 makes a bold statement about the 
need to address climate change and also the means to get there.
    EPA's funding request for its work to stop climate change 
represents a 50 percent increase to the fiscal year 2015 level. 
The increase is overwhelmingly for grants to support the States 
to plan and implement new greenhouse gas standards and for 
providing vital technical support to States as they develop 
these plans.
    I think EPA's emphasis on supporting States is remarkable. 
All the more so given that, over the past 3 years, EPA has just 
barely been able to avoid furloughs. During the past 2 years, 
most Federal agencies were finally able to start getting back 
to normal, normal business after years of budget cuts.
    But EPA has still effectively been operating at the 
sequestered level, and this wasn't something new. EPA's budget 
has dropped 8 percent in real terms, and it lost 12 percent of 
its staff in the last decade. This concerns me a lot. EPA faces 
a tight budget for day to day operations, but I appreciate the 
agency is living within these constraints in order to 
prioritize its climate change work.
    I also appreciate that the budget supports programs 
important to New Mexico, especially uranium cleanup on Navaho 
lands and a $30 million increase for grants to revitalize 
brownfields. Yet I'm worried about some of the proposed 
offsets, especially eliminating radon grants, I believe 
Chairwoman Murkowski also mentioned that, and the 1.5 percent 
cut to State revolving fund (SRF) grants for clean water and 
drinking water, and I look forward to discussing those programs 
today.
    Finally, yesterday, the Environmental and Public Works 
Committee reported bipartisan legislation to reform how we 
regulate the safety of chemicals. I think we did exactly what 
the American people have complained we don't do enough of in 
Washington, we sat down the Republicans, Democrats, advocates, 
and business. We worked together to find a common sense 
solution.
    The legislation creates a predictable and transparent 
Federal system to regulate the safety of chemicals based on the 
latest science. It provides greater regulatory certainty to the 
chemical manufacturing industry and updates a 40-year old law 
that fails to protect the American people. The administration 
drafted helpful principles to guide effective reform of 
chemical management. We have followed those principles, and I 
think we've done a remarkable job.
    I look forward to hearing from you, Administrator McCarthy, 
and to discussing these important matters today, and that's it. 
Thank you.
    Senator Murkowski. Thank you, Senator Udall. Let's go to 
you, Administrator McCarthy. Welcome to the subcommittee, and 
we'll look forward to your comments, and then we'll have an 
opportunity for questions. Welcome.

                SUMMARY STATEMENT OF HON. GINA MCCARTHY

    Ms. McCarthy. Thank you. Thank you so much, Chairwoman 
Murkowski, Ranking Member Udall, and members of the 
subcommittee. Thank you for the opportunity to appear before 
you to discuss the EPA's proposed fiscal year 2016 budget. I'm 
joined by the Agency's Acting Chief Financial Officer, David 
Bloom.
    The EPA's budget request of $8.592 billion in discretionary 
funding for the 2016 fiscal year provides the resources that 
are vital to protecting human health and the environment while 
building a solid path for sustainable economic growth.
    Since 1970 when EPA was founded, we have seen, over and 
over again, that a safe environment and a strong economy go 
hand in hand. This budget supports essential work to address 
climate change, improve air quality, protect our water, 
safeguard the public from toxic chemicals, support community's 
environmental health, maintain core enforcement strength, 
support needed research, and work towards a sustainable future 
for all Americans.
    Effective environmental protection is a joint effort of 
EPA, the States, and our tribal partners. We're setting a high 
bar for continued partnership efforts in looking for 
opportunities for closer collaboration and targeted joint 
planning and governance processes through efforts like E-
Enterprise governance approach.
    That's why the largest part of our budget, $3.6 billion or 
42 percent, is provided directly to our State and tribal 
partners. In fiscal year 2016, our requests include an increase 
of $108 million for State and tribal categorical grants.
    This budget requests $1.1 billion to address climate change 
and to improve air quality. These resources will help protect 
those most vulnerable to climate impacts and the harmful health 
effects of air pollution through common sense standards, 
guidelines, and partnership programs.
    Climate change is not just an environmental challenge. It's 
a threat to our public health, our domestic and global economy, 
and to our national and international security. The request 
supports the President's Climate Action Plan, and in 
particular, the Clean Power Plan which establishes carbon 
pollution standards for power plants.
    In addition, the President's budget calls for a $4 billion 
Clean Power State Initiative Fund to support State efforts to 
accelerate carbon pollution reductions in the power sector.
    Protecting the Nation's waters remains a top priority for 
the EPA. In fiscal year 2016, we will finalize and support 
implementation of the Clean Water Rule, which will clarify 
types of waters covered under the Clean Water Act and foster 
more certain and efficient business decisions to protect our 
Nation's waters.
    Recognizing the need for water infrastructure, the SRF and 
related efforts are funded at over $2.3 billion, and we will 
work with our partners to help communities by focusing on 
issues such as financial planning for future public 
infrastructure investments and expanded efforts with States to 
identify financial opportunities for resilient drinking water, 
waste water, and storm water infrastructure.
    The Agency recently launched the Water Infrastructure and 
Resiliency Center. It's a key component of our effort to expand 
our investment in water infrastructure.
    We are proposing a multifaceted effort to help our 
communities. However, low income neighborhoods, rural 
communities, and communities of color need special assistance. 
This includes targeted funding and on the ground community 
assistance through EPA regional coordinators in a network of 
circuit riders. An investment of $16.2 million will help local 
communities improve safety and security at chemical facilities 
and to prevent and prepare for oil spills. These efforts 
represent a shared commitment among those with a stake in 
chemical facility safety and security ranging from facility 
owners to first responders.
    The fiscal year 2016 budget request will let us continue to 
make a real and visible difference to communities every day. It 
will give us a foundation to improve infrastructure across the 
country, and it will sustain State, tribal, and Federal 
environmental efforts across all our programs.
    With this proposed budget, the President is not only 
sending a clear signal about the resources EPA needs to work 
effectively and efficiently with States and tribes to protect 
public health and the environment, it is also part of an 
overall Federal budget proposal that does not accept the bad 
public policy embodied and sequestration and does not hold back 
needed resources in non-defense spending in order to increase 
needed defense spending or vice versa. Instead, the President's 
proposed fiscal year 2016 budget finds a path forward to avoid 
sequestration and properly support both domestic and national 
security interests.
    Madam Chairwoman, I thank you for the opportunity to 
testify, and I look forward to answering your questions.
    [The statement follows:]
                Prepared Statement of Hon. Gina McCarthy
    Chairman Murkowski, Ranking Member Udall, and members of the 
subcommittee, thank you for the opportunity to appear before you to 
discuss the Environmental Protection Agency's proposed fiscal year 2016 
budget. I'm joined by the agency's Acting Chief Financial Officer, 
David Bloom.
    The EPA's budget request of $8.592 billion in discretionary funding 
for the 2016 fiscal year starting October 1, 2015 provides the 
resources vital to protecting human health and the environment while 
building a solid path for sustainable economic growth. Since the EPA 
was founded in 1970, we have seen over and over again that a safe 
environment and a strong economy go hand in hand. In the last 45 years, 
we have cut air pollution 70 percent and cleaned up half of our 
Nation's polluted waterways. Meanwhile, the U.S. GDP has tripled, which 
shows that investments in public health and environmental protection 
are consistent with strong economic growth. Economic prosperity and 
quality of life depends on public health protection that ensures clean 
air; clean water; and safe, healthy land.
    This budget will let us continue that trend. It funds essential 
work to address climate change, improve air quality, protect our water, 
safeguard the public from toxic chemicals, support communities' 
environmental health, maintain core enforcement strength and work 
toward a sustainable future for all Americans. Central to this work is 
supporting our State, local, and tribal partners, working with them to 
deliver on our environmental and health improvements as a shared 
responsibility. We are doing this while supporting a strong workforce 
at the EPA with the tools necessary to ensure effective use of the 
public funds provided to us.
     making a visible difference in communities across the country
    We are focused on continuing our work with partners to make a 
visible difference in communities and across the country--especially in 
areas overburdened by pollution--including low-income neighborhoods, 
rural communities, and communities of color.
    This budget proposes a multifaceted effort to enable communities of 
all sizes, rural and urban, to find needed assistance and support for 
capacity building, planning, and implementation of environmental 
protection programs. In fiscal year 2016, EPA will support this effort 
by providing targeted funding and regional coordinators to help 
communities find the best programs to address local environmental 
priorities. This budget also provides for a network of ``circuit 
riders'' to provide on-the-ground assistance to communities to build 
and strengthen the adaptive capacity and resilience to climate change. 
EPA will also a support community revitalization and economic 
redevelopment by investing $110 million dollars, an increase of $30 
million from last year, to plan, assess, clean up and reuse 
brownfields.
    This request also includes an additional investment of $16.2 
million over our current resources to help local communities improve 
safety and security at chemical facilities, and to prevent and prepare 
for oil spills. This investment will improve compliance outreach to 
industry, emergency planning assistance to local communities, updates 
to existing guidance and regulations, and enhancements to software used 
by emergency responders.
    The EPA will also work to limit public exposure to uncontrolled 
releases of hazardous substances and make previously contaminated 
properties available for reuse by communities through a request of 
close to $540 million in the Superfund Remedial program and another 
$191 million in the Superfund Emergency Response and Removal program, 
which is an increase of $48 million across the two programs.
          addressing climate change and improving air quality
    The fiscal year 2016 budget request for the agency's work to 
address climate change and to improve air quality is $1.1 billion. 
These resources will help protect those most vulnerable to climate 
impacts and the harmful health effects of air pollution through 
commonsense standards, guidelines, and partnership programs.
    Climate change is one of the greatest challenges of our time. 
Climate change is not just an environmental challenge, it is a threat 
to public health, to our domestic and global economy, and to our 
national and international security. The U.S. has already and will 
continue to shift the international discussion on climate change from 
one that focuses on mitigation costs to one that embraces new 
investment opportunities. If done right, we can cut the carbon 
pollution that is fueling climate change and position the business 
community, its entrepreneurs, and its innovators to lead the world in a 
global effort while at the same time, expanding the economy. States and 
businesses across the country are already working to build renewable 
energy infrastructure, increase energy efficiency, and cut carbon 
pollution--creating sustainable, middle class jobs and displaying the 
kind of innovation that has enabled this country to overcome so many 
challenges.
    This request supports the President's Climate Action Plan and makes 
climate action a priority. In particular, the Clean Power Plan, which 
establishes carbon pollution standards for power plants, is a top 
priority for the EPA and will help spur innovation and economic growth 
while creating a clean energy economy. The Plan gives States the 
flexibility they need to design and implement plans that reduce their 
carbon pollution while meeting the needs of their residents and 
businesses. The budget request includes an increase of $25 million in 
direct grant support to States to establish the programmatic 
infrastructure necessary for effective implementation as well as 
resources for EPA to provide critical support to the States through 
technical assistance, developing guidance, modeling, and other tools.
    In addition, the President's budget calls for a $4 billion Clean 
Power State Incentive Fund to be administered through a mandatory 
spending account to support State efforts to accelerate carbon 
pollution reductions in the power sector. This funding will enable 
States to invest in a range of activities that complement and advance 
the Clean Power Plan, including but not limited to direct investments 
and financing for renewable energy and energy efficiency programs; 
funding for low-income communities to address disproportionate impacts 
from environmental pollution; and assistance and incentives for 
businesses to expand infrastructure for innovative projects that reduce 
carbon pollution.
    The President's Climate Action Plan also calls for greenhouse gas 
reductions from the transportation sector by increasing fuel economy 
standards. With input from industry and stakeholders, the EPA, working 
with the National Highway Transportation Safety Administration, expects 
to finalize Phase II greenhouse gas and fuel efficiency standards for 
heavy-duty vehicles. These standards will deliver significant savings 
at the pump, reduce carbon pollution, and reduce fuel costs for 
businesses while improving the efficiency of moving goods across the 
United States.
                     protecting the nation's waters
    Protecting the Nation's waters remains a top priority for the EPA. 
We will continue to build upon decades of efforts to ensure our 
waterways are clean and our drinking water is safe. Water pollution 
endangers wildlife, compromises the safety and reliability of our 
drinking water sources and treatment plants, and threatens the waters 
where we swim and fish. In fiscal year 2016, we will begin 
implementation of the Clean Water Rule, which will clarify types of 
waters covered under the Clean Water Act and foster more certain and 
efficient business decisions to protect the Nation's waters.
    Aging systems and the increasing impacts of climate change create 
opportunities for innovation and new approaches for drinking water and 
wastewater infrastructure. Building on the strong funding level of $2.3 
billion provided through the Clean Water and Drinking Water State 
Revolving Funds, $50 million is included for technical assistance, 
training, and other efforts to enhance the capacity of communities and 
States to plan and finance drinking water and wastewater infrastructure 
improvements. The EPA will work with States and communities to promote 
innovative practices that advance water system and community resiliency 
and sustainability. Dedicated funding through the Clean Water SRF will 
advance green infrastructure design and practices such as incorporating 
permeable permanent natural structures, green roofs, and wetlands which 
can help cost-effectively meet Clean Water Act requirements and protect 
and restore the Nation's water resources.
    In January 2015, the agency launched a key component of this 
expanded effort, the Water Infrastructure and Resiliency Finance 
Center. We will work with our partners to help communities across the 
country by focusing on issues such as financial planning for future 
public infrastructure investments and expanded efforts with States to 
identify financing opportunities for resilient drinking water, 
wastewater and stormwater infrastructure. We will enhance our 
partnership and collaboration with the U.S. Department of Agriculture 
on training, technical assistance, and funding opportunities in rural 
areas. The Water Infrastructure and Resiliency Finance center is part 
of the Build America investment initiative, a governmentwide effort to 
increase infrastructure investment and promote economic growth by 
creating opportunities for State and local governments and the private 
sector to collaborate on infrastructure development.
    Separately, EPA will continue efforts to protect and restore 
ecosystems through its geographic programs. EPA and its Federal 
partners are making steady progress on reducing unexpended balances of 
Great Lakes Restoration Initiative funding, and will continue and 
strengthen efforts to further reduce these balances and examine 
potential ways to increase expenditure rates in future years.
                          protecting our land
    The EPA strives to protect and restore land to create a safer 
environment for all Americans by cleaning up hazardous and non-
hazardous wastes that can migrate to air, groundwater and surface 
water, contaminating drinking water supplies, causing acute illnesses 
and chronic diseases, and threatening healthy ecosystems. We preserve, 
restore, and protect our land, for both current and future generations 
by cleaning up contaminated sites and returning them to communities for 
reuse. Our funds will assist communities in using existing 
infrastructure and planning for more efficient and livable communities, 
and encouraging the minimization of environmental impacts throughout 
the full life cycle of materials.
    In fiscal year 2016, we will increase the Superfund Remedial 
program by $39 million to accelerate the pace of cleanups, supporting 
States, local communities, and tribes in their efforts to assess and 
cleanup sites and return them to productive reuse, and encourage 
renewable energy development on formerly hazardous sites when 
appropriate. We will expand the successful Brownfields program, 
providing grants, and supporting area-wide planning and technical 
assistance to maximize the benefits to the communities. In fiscal year 
2016, the EPA is investing $110 million in funding for Brownfields 
Project grants to local communities, an additional $30 million over the 
fiscal year 2015 Enacted Budget, increasing the number of grants for 
assessment and cleanup of contaminated sites. This investment builds on 
the program's successful community-driven approach to revitalizing 
contaminated land and further supports the agency's efforts to make a 
visible difference in communities.
            taking steps to improve chemical facility safety
    In support of the White House Executive Order 13650 on Improving 
Chemical Facility Safety and Security, the EPA is requesting $27.8 
million for the State and Local Prevention and Preparedness program, an 
increase of $12 million above the fiscal year 2015 enacted level. This 
increase will allow the EPA to continue to improve the safety and 
security of chemical facilities and reduce the risks of hazardous 
chemicals to facility workers and operators, communities, and 
responders.
    These efforts represent a shared commitment among those with a 
stake in chemical facility safety and security: facility owners and 
operators; Federal, State, local, tribal, and Territorial governments; 
regional entities; nonprofit organizations; facility workers; first 
responders; environmental justice and local environmental 
organizations; and communities. In fiscal year 2016, we are 
implementing actions to strengthen community planning and preparedness, 
enhance Federal operational coordination, improve data management, 
modernize policies and regulation, and incorporate stakeholder feedback 
and best practices.
    continuing epa's commitment to innovative research & development
    In building environmental policy, scientific research continues to 
be the foundation of EPA's work. Environmental issues in the 21st 
century are complex because of the interplay between air quality, 
climate change, water quality, healthy communities, and chemical 
safety. Today's complex issues require different thinking and different 
solutions than those used in the past. In fiscal year 2016, we are 
requesting $528 million for research and development to evaluate and 
predict potential environmental and human health impacts including 
impacts related to air pollution, water quality, climate change and 
biofuels. This will allow all decision makers at all levels of 
government to have the science needed to develop and implement 
environmental policies and strategies. This request will also support 
expanding the EPA's computational toxicology effort--which is letting 
us study chemical risks and exposure exponentially faster and more 
affordably than ever before. We are also providing support tools for 
community health, investigating the unique properties of emerging 
materials, such as nanomaterials, and research to support the Nation's 
range of growing water-use and ecological requirements.
                  supporting state and tribal partners
    Effective environmental protection is a joint effort of EPA, States 
and our tribal partners, and we are setting a high bar for continuing 
our partnership efforts. That's why the largest part of our budget, 
$3.6 billion dollars or 42 percent, is provided directly to our State 
and tribal partners. In fiscal year 2016, we are requesting an increase 
of $108 million in funding for State and Tribal Assistance categorical 
grants. The increase for State and Tribal Assistance includes an 
additional $31 million over the fiscal year 2015 enacted level for the 
Tribal General Assistance Program, supporting tribes in the development 
of sustainable and robust environmental regulatory programs for Indian 
Country.
    As one example of our efforts, we are also including opportunities 
for closer collaboration and targeted joint planning and governance 
processes. One example is the E-Enterprise approach, a transformative 
21st century strategy to modernize the way in which government agencies 
deliver environmental protection. With our co-regulatory partners, we 
are working collaboratively to streamline, reform, and integrate our 
shared business processes and related systems. These changes, including 
a shift to electronic reporting, will improve environmental results, 
reduce burden, and enhance services to the regulated community and the 
public by making government more efficient and effective. State-EPA-
Tribal joint governance serves to organize the E-Enterprise partnership 
to elevate its visibility, boost coordination capacity, and ensure the 
inclusiveness and effectiveness of shared processes, management 
improvements, and future coordinated projects. Projects following the 
E-Enterprise approach will yield the benefits of increased 
transparency, efficiency, and burden reduction for communities, 
businesses, and government agencies when implemented.
             maintaining a forward looking and adaptive epa
    The EPA has strategically evaluated its workforce and facility 
needs and will continue the comprehensive effort to modernize its 
workforce. By implementing creative, flexible, cost-effective, and 
sustainable strategies to protect public health and safeguard the 
environment, the EPA will target resources toward development of a 
workforce and infrastructure that can address current challenges and 
priorities.
    We are requesting funding in this budget to help us fast-track 
efforts to save taxpayer dollars by optimizing and renovating critical 
agency space. That includes our laboratory buildings across the 
country, where we conduct critical scientific research on behalf of the 
American public. In the past 3 years, the EPA realized $8.3 million in 
rent avoidance by releasing over 225 thousand square feet of space 
nationwide. We've taken a careful look at our workforce and facility 
needs so we can continue to optimize and update our physical footprint 
in fiscal year 2016. We'll also target resources to prepare our 
outstanding agency workforce for the future, and continue our E-
Enterprise effort with States to improve and modernize joint business 
processes--for instance, replacing outdated paper processes for 
regulated companies with electronic submissions.
    The EPA continues to examine its programs to find those that have 
served their purpose and accomplished their mission. The fiscal year 
2016 President's budget also eliminates some mature programs where 
State and local governments can provide greater capacity. Those grant 
programs are the Beaches Protection categorical grants, the State 
Indoor Air and Radon grants, the Targeted Airshed grants and the Water 
Quality Research and Support grants, totaling $44.6 million.
    The EPA's fiscal year 2016 budget request will let us continue to 
make a real and visible difference to communities every day. It will 
give us a foundation to revitalize the economy and improve 
infrastructure across the country. And it will sustain State, tribal, 
and Federal environmental efforts across all our programs.
    I thank you for the opportunity to testify today. While my 
testimony reflects only some of the highlights of the EPA's fiscal year 
2016 budget request, I look forward to answering your questions.

    Senator Murkowski. Thank you, Administrator. I appreciate, 
again, you being here.
    We're joined this afternoon by the majority leader, and I'm 
told that he has a meeting with the Prime Minister here very 
shortly, so I would like to defer to Senator McConnell for his 
questions first.

                    FEDERAL PLAN--CARBON REGULATIONS

    Senator McConnell. Thank you, Madam Chairwoman.
    Administrator McCarthy, as you know, things are not well in 
the Commonwealth of Kentucky. We have a depression in Eastern 
Kentucky.
    Your agency's proposed budget request, if approved, would 
facilitate the EPA's plan to shut our coal plants in my State, 
put countless more of my constituents out of work, all in 
service of a regulatory agenda, the actual benefits of which 
neither you nor anyone else can seem to explain.
    My constituents want their dignity restored. They want to 
be able to work. They want to be able to provide for their 
families. You cannot guarantee your carbon regulations won't 
cost my constituents jobs. You cannot guarantee your carbon 
regulations won't raise their utility bills. You refused my 
multiple invitations to come to our State and discuss these 
regulations with my constituents.
    And one of your deputies, listen to this, added insult to 
injury when she said, EPA only held hearings, she said, on 
carbon regulations in areas where your colleagues, ``were 
comfortable coming to.'' I assume that's places unlike 
Pikeville, Kentucky.
    Now, I know that the Obama administration points to 
Kentucky as a State where your plans are actually underway. But 
according to our Governor's office, my State will not be able 
to submit a State plan that meets your demands before the 
current Governor leaves office, which is December of this year, 
2015.
    So you might be interested to know that all the major 
candidates for Governor this year, one of whom will take office 
in December of this year, have said they're not going to submit 
a plan. The current Governor, who's working with you, will be 
gone. He says he can't finish it by December. And none, the 
Democrat and multiple Republican candidates, none of them are 
going to submit a plan.
    So my question is, how in the world do you intend to force 
my State to comply with a Federal plan? What are you going to 
require Kentucky to do, run coal plants less of the time, build 
gas plants, erect wind mills, put up solar panels, build 
pipelines? Does EPA really know how to do all these things? Do 
you think you can really require these things under the Clean 
Air Act?
    Ms. McCarthy. Leader McConnell, thank you for your 
questions, and I appreciate your concerns. Let me try to answer 
them.
    I believe that EPA has designed this plan in a way that we 
are respecting the current situation in States and their energy 
mix, designing our standards to accommodate reasonable benefits 
in terms of reducing carbon pollution and what those States can 
do and leaving tremendous flexibility to the individual States 
in the most respectful way that we can.
    I am more than happy to take your comments and to work with 
any Governor of any State at any time, whether they're here or 
Governors in the future. We have been working closely with this 
Governor and clearly with his staff to try to look at what 
options are available and how they can address the issues 
associated with their carbon emissions in ways that are 
reasonable and appropriate for their State, which is the 
interest that you share as well, sir, in protecting your 
communities and your families.
    To the extent that we can continue to work with future 
Governors, I would love that opportunity. When you take a look 
at the comments that have been received, they are thoughtful, 
they are critical, and they are supportive. We are looking at 
each and every one of them, so this final rule can be something 
that every State can achieve and be proud of, and that we would 
continue to encourage every State to take the opportunity we 
have given them in this rule, which is to design the solution 
themselves in a way that meets their own needs and their energy 
projections.
    Senator McConnell. Well, if I may, I hate to interrupt, but 
I'd like to make sure I get some more in before I run out of 
time.
    Ms. McCarthy. That's fine. No problem, sir.

                       CLIMATE CHANGE REGULATIONS

    Senator McConnell. So you got a current Governor who can't 
finish before he leaves all of this in December, and the next 
Governor who's not going to file a plan. So I assume you'll 
have to wrestle with that.
    So let me move onto another issue. You and your colleagues 
like to imply that Congress won't have a role in this process 
when you proposed the plan last year. You cited, for example, 
multistate programs as a basis to ensure ``more flexibility and 
lower costs.'' Recently, one of your deputies told the Federal 
Energy Regulatory Commission (FERC) that the multistate plans 
are a significant part of your strategy.
    I'd like to acquaint you with section 102(c) of the Clean 
Air Act requirements, requires Congressional consent for 
cooperative agreements. That's section 102(c) of the Clean Air 
Act requires Congressional consent for cooperative agreements. 
The law reads, ``No such agreement or compact shall be binding 
or obligatory upon any State unless and until it's been 
approved by Congress.'' Unless and until it's been approved by 
Congress, doesn't seem ambivalent to me.
    I can assure you that, as long as I'm majority leader of 
the Senate, this body is not going to be signing off on any 
back door energy tax.
    One final point. You have assured international officials 
that the United States is serious about imposing climate change 
regulations. I'd say what we have learned from your recent time 
on Capitol Hill, this is not the case. I would remind you, the 
executive branch is only one-third of the U.S. Government. The 
Congress, of course, didn't pass Cap and Trade back in 2009 and 
2010 when the Democrats had very large majorities here. So the 
failure of Congress to sign off should signal to other 
countries that they should proceed with caution into the 
December 2015 climate talks in Paris.
    Any further thoughts? I'm about out of time.
    Ms. McCarthy. I'm sorry. Let me just indicate, sir, that I 
believe that we're acting under the authority that Congress 
gave us under the Clean Air Act, and we are going to be 
producing a rule that will stand its test of time in the 
courts.
    Senator McConnell. Yes, well, that's going to be the test. 
You're going to have to prove it in court as you know. In the 
meantime----
    Ms. McCarthy. As we most often do.
    Senator McConnell. Yes, in the meantime, we've got a grim, 
grim situation in Kentucky.
    Thank you, Madam Chairwoman.
    Senator Murkowski. Thank you, Leader.
    Let's go to our ranking member for his questions, and then 
we'll come back to the Republican side.

                          CLIMATE CHANGE RULES

    Senator Udall. Thank you very much. Let me get my 
microphone there.
    Administrator McCarthy, New Mexico and the Southwest are, 
as you probably know, are really in the bull's eye when it 
comes to climate change. The effects can readily be seen. We 
are experiencing serious decreases in snow pack and river 
flows, which has led to one of the longest and most severe 
droughts in history.
    Climate change is a serious problem. The American people 
know it's serious, and they want something done. EPA is 
answering the call, and I fully support your efforts. That's 
why I'm glad to see that EPA is tackling emissions reductions 
on multiple fronts by proposing lower standards for greenhouse 
gas emissions, including new standards focusing specifically on 
methane.
    Administrator McCarthy, I know we hear a number of concerns 
this morning about potential impacts that your proposed climate 
rules will have on jobs and the cost of the reliability of our 
energy supply. I'd like to take a moment to ask you to address 
a couple of those concerns.
    Can you share with us why you believe your proposed 
framework offers States the proper flexibility to comply with 
the new standards, and why in particular you are confident that 
the rules will protect the reliability of the Nation's energy 
supply?
    Ms. McCarthy. Well, thank you for the questions.
    The way in which we designed this rule was to make sure 
that we did what the States and most were asking us to do, 
which was to use our science to establish standards and to 
allow maximum flexibility for the States to achieve that in a 
way in which they were planning to grow their energy, but to do 
it in a way that would reduce the carbon emissions from those 
energy supplies.
    There is tremendous effort on the part of every State to 
actually look at their energy system now. It is in transition. 
We are seeing changes, and this rule should underpin that.
    What we have understood is the need for us to take a look 
at where every State is and what their options are, to be 
reasonable in what we think they can achieve, and to give a 
long period of time for that achievement to happen, which sends 
a long market signal but provides ultimate flexibility for the 
States to design their own future for themselves. What we are 
seeing is that even heavily carbon emitting sources like coal 
facilities, you still have coal significantly in the mix in 
2030. It's now at about 37 at the most, 34 percent of the 
energy mix. It's still going to be 30 percent in 2030.
    So we are not picking and choosing among energy systems 
here. We're looking what States are doing. We're looking at 
where the energy supply is heading. We're allowing States to 
get there, and we are ensuring that we provide the time and the 
flexibility so that reliability will never be threatened and 
affordability of our energy systems can be maintained.

                      CLIMATE CHANGE--FINAL RULES

    Senator Udall. The draft rules have been open for public 
comment and feedback. I think you've done that pretty 
extensively. Can you discuss how you plan to address some of 
the concerns raised by stakeholders in the final rules?
    Ms. McCarthy. I can. Thank you for mentioning the outreach 
efforts, because it really was unprecedented. I think we've 
been working at that for about 3 years. We have been talking 
about this rule and the opportunities for reductions. We 
received close to 4 million comments and have been working 
extensively with the stakeholders. We are confident that every 
State has an opportunity here to move forward, given the 
flexibility we have to design their own plans.
    We are confident, again, that everyone can do it in a way 
that continues to advance their own economy, that will not 
threaten jobs, that will not threaten the reliability and 
affordability of our energy system. We are looking at this as 
real opportunities economically for the United States to do 
what you suggested, Governor--I mean, Governor, past tense--
Senator. What you have indicated is to unleash the innovation 
in our economy so that the United States can lead the charge to 
a low carbon future, and we're confident that we will get 
there.
    Senator Udall. And really what you're talking about, by 
setting these guidelines and these standards, companies can 
then innovate and try to really move in the direction where we 
can meet all the specific targets that we've put in place.
    Ms. McCarthy. We know that the comments have provided us 
significant opportunity to do two things, to look at the State 
targets individually and to look at the framework itself. We 
got significant technical comments on this. We're paying 
attention to each and every one of them.
    We know that, if we pay attention to those, and we pay 
attention to what States are telling us, and the utility world 
as well and stakeholders, that we will make adjustments that 
will make everybody look at this final rule and recognize that 
we have paid respect through the common process in what has 
been provided to us in the way of real data.

                     CLEAN AIR ACT COMPLIANCE COSTS

    Senator Udall. The history of the Clean Air Act Amendment 
shows that compliance costs have been far lower than expected 
when laws are implemented. Can you remind us about the 
experience of implementing the 1990 amendments and talk about 
what lessons that experience have shown?
    Ms. McCarthy. Well, Congress wisely asked us to pull 
together basically a Federal advisory committee that had an 
extensive make up to look at the 1990 amendments and do sort of 
a 20-year review. Did we get there? What was the cost?
    We found that the benefits of the Clean Air Act absolutely 
tremendous. They have saved countless lives and billions and 
billions, if not trillions, of dollars. They have protected our 
families.
    One thing I would indicate to you as well, Senator, is 
that, in my short time, I have seen basically my partnership 
with utilities to look at how to do this reasonably, has meant 
that they have always achieved more than what our standards 
required and at cheaper cost. Because once they embrace the 
direction in which our rules ask them to head, they run as fast 
and as far as they can.
    In a rule like this, every time you run farther, you will 
save more money, and you'll save your consumers more money, and 
that is basically a win for everyone.
    Senator Udall. Thank you. Thank you, Madam Chair.
    Senator Murkowski. Thank you, Senator Udall.
    Administrator, I want to follow on with the majority 
leader's comments about the Clean Power Plan.
    Ms. McCarthy. Yes.

                            CLEAN POWER PLAN

    Senator Murkowski. As you know, I have been raising the 
concern, the alarm about reliability of our electricity in our 
grids across the country and the impact of this proposed carbon 
rule on the aspect of reliability. We saw the analysis last 
week from the North American Electric Reliability Corporation 
(NERC) that didn't do much to calm my fears on that.
    But I mentioned in my opening statement that the technical 
analysis that was done, the integrated planning model and 
regulatory impact analysis, failed to evaluate the application 
of the rule to my entire State, didn't even look at it. And I 
think the lack of analysis was there was because Alaska is so 
unique. We're not connected to anybody else's grid. The size 
and the scope is pretty considerable as we know. But there's 
very little comparison to other States, and our electricity 
sector is substantially different than what you have in the 
lower 48.
    We have five facilities that we're talking about here, four 
of which are natural gas, one is coal. So when you're talking 
about how you're going to get to that 26 percent reduction, 
there's not a lot of give. And as a consequence, Alaska has 
looked at this very critically and says, there is no way that 
we can achieve what has been set out.
    You use the word flexibility quite a lot, but the concern, 
of course, is that there is no level of flexibility that will 
make a proposal like this work in a State like Alaska, and so 
our State's leaders have asked that Alaska be exempted in the 
final rule.
    How carefully are you considering this request for an 
exemption, and what can you give me in terms of your reaction 
to that request?
    Ms. McCarthy. Well, Madam Chairwoman, let me explain. The 
analysis we did in our rule is a national analysis and a 
regional analysis looking at issues like reliability, which we 
believe is really the most significant way to analyze it, 
especially when you give so much flexibility to individual 
States.
    Having said that, we find ourselves often talking about the 
uniqueness of Alaska. This is another instance in which that 
is, again, the case, because they are not interconnected in a 
way that other States are.
    Senator Murkowski. So are you considering the State's 
request for a full exemption?
    Ms. McCarthy. We actually have, in the rule itself, 
solicited that comment, because we indicated that this was our 
assessment of what could be achieved, but we asked specifically 
for comment on this specific issue. So we will, of course, take 
this under very serious consideration.
    But you should be, I believe, heartened by the fact that we 
acknowledged the uniqueness, and we solicited that comment. So 
it gives us every ability to take whatever action we think that 
the data justifies and would indicate to us is appropriate.

                      WATERS OF THE UNITED STATES

    Senator Murkowski. And of course, right now, our concern 
is, where is the data?
    Let me turn to waters of the United States, because this 
is, again, an area of extreme concern. I mentioned the wetlands 
that we have in Alaska, 63 percent of the wetlands in the 
entire United States are in Alaska. And so the concern that we 
have is the expansion of the scope that EPA may regulate will 
lead to a situation where development of any kind is next to 
impossible, the smallest development.
    And it's coming from folks not necessarily associated with 
the oil and gas industry, but it's home builders, it's farmers, 
it's energy, it's mining companies, it's the transportation 
sector. There is major concern across the board. And I know 
that I'm speaking for not just Alaska when I talk about the 
various constituencies that are really quite rattled about the 
application of this proposed rule.
    You have suggested that these concerns are overblown. At 
one point, you called some of the issues that have been raised 
ludicrous. Folks back home don't think it's ludicrous. They are 
scared to death about what we may see with application of this 
rule.
    And you keep using the word clarification, or this is just 
to clarify. But again, I'm hearing from too many different 
sectors saying, this is not clarification. This is a limitation 
on our ability to not only move but to breathe.
    And I guess the question to you today is, why should we 
trust the assessment that this rule is just a clarification 
when across the spectrum, you have different voices, not just 
in Alaska, but different voices around the country that are 
saying, this is going to increase our cost, it's going to limit 
our ability to conduct business? How can you convince me that 
this is a clarification?
    And then the follow on question that I'd like you to 
address is, the Ag Committee has been quite loud in its 
objection, you've suggested that you're working to address some 
of their issues. We don't have as much agriculture in Alaska, 
but we sure have a lot of upset and angry miners, developers. 
What are you doing to address the concerns that they have 
raised as well?
    Ms. McCarthy. Well, let me just begin by saying, the reason 
we're down this road in terms of doing a rule making is 
actually to provide clarification. Let me explain that.
    It is because the Supreme Court, in recent decisions, have 
told us that we need to do a better job at making sure we're 
doing--taking the closest look at the science available to us. 
We are ensuring that we are protecting those waters that are 
most important for all of the virtues of water that we love, 
which is to provide us drinking water supplies, help us with 
natural resource protections that we all care about.
    I know that this is important not just to folks in Alaska 
but throughout the United States. It is a difficult rule. 
Everybody is engaged, but I would also indicate that I have 
just as many constituents, if not more, telling us how 
important it is to complete this rule because of the lack of 
clarity, because we know we are not protecting some waters and 
streams which science tells us we should be more carefully 
protecting.
    This is not an expansion of our jurisdiction. This is a way 
to focus attention where it's deserved, so that there can be 
increased clarity about what's in and what's not in. What we 
are also seeing is work being done where it's unnecessary to 
do, because the science can clearly tell us what we should be 
focusing our attention on it and what not.
    So we're working very closely with the agriculture 
community. We have done absolutely nothing to take away the 
exemptions or exclusions that are in current rules and law, and 
we have, in fact, done more exclusions than under current law.
    So we have to be clearer about what we're saying as well as 
being very clear about waters that are important to protect, 
and that's what this rule is all about. We sought to do this in 
a guidance, apparently before I took this position, but the 
clear, overwhelming message to us was, do it in a rule. Give us 
a chance to comment on it. Let us take a look at it.
    What we are trying to do is make sure that we're paying 
attention to the comments. This is not ludicrous, nor is any 
comment. This is serious business, and we need to get this 
final rule right, and we understand that, and science can allow 
us to do that.
    Senator Murkowski. Well, and I think you understand that 
the heart of this debate is, is this a clarification or is this 
yet that overreach, that creep of an agency that so many of us 
are concerned with. While your words are articulate this 
afternoon, I don't think it does much to calm the fears of the 
farmer--or excuse me, the miner out in 40 Mile, who is worried 
about whether or not they're going to be able to move forward 
with their small placer mining activity.
    Let's go to Senator Leahy.
    Senator Leahy. Thank you very much, Madam Chairwoman.
    Administrator McCarthy, you and I have had a lot of 
discussions, and I appreciate you coming to Vermont when you 
have. I know you get a lot of strong reactions from the public, 
even from some of my colleagues in the Senate.
    But in the 44-year history at EPA, you cleaned the 
country's drinking water, something of great significance to 
the health of all of us and our children and our grandchildren. 
You've reduced our exposure to dangerous chemicals. You've 
penalized polluters. That's why most Vermonters applaud what 
you've done with the environment, and they applaud EPA.
    Ms. McCarthy. Thank you, sir.

                        RESIDENTIAL WOOD STOVES

    Senator Leahy. There's one issue I mentioned before we 
started. Burning wood provides a local, affordable, renewable, 
efficient heat source. Vermont actually has the highest 
percentage of homes that use wood stoves as a main source of 
heat. We do in our own home in Vermont. Our chairman and 
ranking member's home States of Alaska and New Mexico are the 
ninth and seventh in the country, so major ones.
    Now, EPA has adopted new emission standards for wood 
stoves. These standards haven't been updated since, I believe, 
1988. We know we need them, the standards. We know there are 
dangerous air quality impacts when conditions trap smoke 
emissions around the hill towns. I've seen them when I've come 
across the brow of the hill, and there's a town in the valley 
enclosed in smoke.
    I strongly support the Step 1 standards U.S. manufacturers 
already meet. I am concerned about Step 2 and the compliance 
timeline, the testing for it, that they may not be achievable 
for small businesses, and they could drive out the makers of 
some great products along with some small town manufacturing 
jobs.
    So my question is, what resources does this funding request 
include to develop and standardize testing methods to reliably 
measure emissions from residential woodstoves burning both cord 
wood or crib wood? And will the methods be certified and 
available to industry with enough lead time to design, build, 
and test new product lines ahead of the 2020 Step 2 compliance 
deadline?
    Ms. McCarthy. Well, thank you for both the support for 
moving forward and for your concern about the small business 
implications, because EPA agrees with you that these are 
significant sources of pollution. We do recognize that where we 
can work most effectively is to look at these new standards.
    The reason why we did this two phase in is to protect small 
businesses so they would have the time to be able to understand 
how to certify their stoves but also to have the time for those 
who are a little bit behind in modern technology to be able to 
innovate and be able to continue to support their businesses.
    The final rule took cognizance of a very extensive 
communication with the Small Business Administration Advocacy 
Office and with small businesses in this field. We have assured 
them, and I think they're more than comfortable for the most 
part, that we gave them additional time in order to meet these 
second phase standards.
    We will have, basically, testing processes, so they can 
feel confident that they can move forward and have products to 
sell in the marketplace that will achieve these phase two 
standards.
    Senator Leahy. I may want to follow up with you more as we 
go along, because some of the companies, Hearthstone is one, in 
Vermont, they're concerned about meeting these standards. We 
also see woodstoves used far longer than the 20-year lifespan 
assumed in your rule.
    Ms. McCarthy. Right.
    Senator Leahy. That's my home, in Middlesex, Vermont, and 
well, the stove is not quite as old as I am. It has been there 
more than 20 years.
    Ms. McCarthy. Well, we're certainly not doing anything to 
impact people's ability to use their existing stoves, but it is 
important that we make progress.
    Senator Leahy. But I got an idea on this.
    Ms. McCarthy. Yes. Senator Leahy.
    Senator Leahy. We did the auto bailout. We had a cash for 
clunkers.
    Ms. McCarthy. Oh, yes.

                      WOOD STOVE CHANGEOUT PROGRAM

    Senator Leahy. That got a lot of old cars off the road. If 
we had one, I'm probably not going to take use of it. I'll buy 
my own if I need a new stove. But what about a cash for 
clunkers for wood stoves?
    Ms. McCarthy. Well, I do think that there have been some 
States that have administered that type of a program, in 
particular, I think, in some of the valleys in California, 
where the particulate matter is so high. I'm not sure whether 
EPA has sufficient funding to support that or whether that came 
from some of the local air boards. But we should look----
    Senator Leahy. Maybe we should talk about getting the 
funding for it, because it's something to consider.
    Ms. McCarthy. It's a big deal, yes.

                      LAKE CHAMPLAIN FUNDING CUTS

    Senator Leahy. Also, you know, Vermont has got to work with 
EPA to achieve goals on phosphorous levels in Lake Champlain, 
and I appreciate you coming to Vermont to see the Lake. But the 
administration's proposal in fiscal year 2016 to cut by nearly 
70 percent the funding for the Lake Champlain Geographical Area 
Program is overwhelming to a small State like ours.
    So can we continue to work together on that? I know the 
Governor wants to, and the other members of the delegation want 
to.
    Ms. McCarthy. Of course. I have to congratulate the 
Governor and the legislature in Vermont for really moving 
forward with their own State initiatives. It was very 
impressive to see how much work is getting done there, and I'd 
love to be able to support that effort.
    Senator Leahy. Well, we'll see. We'll talk to you more.
    And thank you, Madam Chairwoman.
    Think about this, getting some money for this cash for 
clunkers. And again, I assure you, I'm not looking to get rid 
of mine. I just want this opportunity--a lot of these towns 
might get rid of them in Alaska and New Mexico.
    Ms. McCarthy. Well, this is a big deal in the Chairwoman's 
district up in Fairbanks. This is one of their major sources. 
They've had an extensive program trying to get the old ones 
out.
    Senator Leahy. Yes, they got a lot more money than we did 
in Vermont. Thank you.
    Ms. McCarthy. Yes.
    Senator Murkowski. I would just tell my friend from 
Vermont, we have been engaged in this woodstove exchange in 
Fairbanks as we're dealing with a particulate matter up there. 
And in terms of getting the newer technologies into people's 
homes, it works.
    What we're trying to check on now is exactly how much of 
the funding for that exchange was through EPA grants. So 
hopefully, we'll have that by the time I'm up for the next 
round of questioning, but we'll keep you posted on that.
    Senator Leahy. Thank you.
    Senator Murkowski. Let's go to Senator Alexander.

                    OAK RIDGE--MERCURY CONTAMINATION

    Senator Alexander. Thank you, Madam Chairwoman. Madam 
Administrator, welcome.
    I've got a couple of questions about matters pending before 
you. In May of 2013, the Department of Energy said it would 
build a water treatment plant to reduce mercury contamination 
at Oak Ridge that's left over from the cold war, it is badly 
needed.
    EPA is currently negotiating with the Department of Energy 
and the State of Tennessee to allow the design and construction 
to move forward. The final agreement is expected in May.
    Will you commit to me that you will work to resolve this 
matter as expeditiously as possible, so we can move quickly to 
begin to reduce mercury contamination in Oak Ridge?
    Ms. McCarthy. Yes, I will.

                      CLEAN AIR ATTAINMENT STATUS

    Senator Alexander. Thank you, Madam Administrator.
    Second pending matter, last November the State of Tennessee 
on behalf of three Tennessee counties, Anderson, Blount, and 
Knox, applied for clean air attainment status with the EPA, 
that has to do with ozone. The good news is, this air around 
the Great Smoky Mountains is cleaner, demonstrably cleaner. Our 
conservation groups have noticed that. Most of us who live 
there notice that.
    The local community is eager for the EPA to consider and 
approve the State's request for a determination that the air is 
cleaner. That helps them with economic development. Can I ask 
you to move as expeditiously as possible to review those 
applications?
    Ms. McCarthy. You can, sir, and I will.

                            OZONE STANDARDS

    Senator Alexander. Thank you very much, Madam 
Administrator.
    Now, along that line, in November, the EPA announced it 
might further lower the ozone standard. Now, I understand that 
the Clean Air Act says every 5 years, you're supposed to review 
that, but not necessarily change the standards.
    I'd like to ask you to consider this. Now, think of it from 
my perspective. I live in this area that I'm talking about. I 
voted for the cross State air pollution rule, the Utility MACT 
Rule. I support the ultra low-sulfur regulations. I applauded 
TVA for the agreement it made with EPA to operate its coal 
plants cleanly. I am certain that all those actions are the 
reason why the air is cleaner in East Tennessee and in other 
parts of our State.
    I think it would be better if you would allow those new 
laws, regulations, and agreements to continue for a while, 
because they're all trending in the right direction, rather 
than change the ozone standard, which would bring to a halt 
economic development. We're a manufacturing State. So if an 
auto supplier is coming in, say to Maryville or Oak Ridge or 
Knoxville, the first thing they ask is, are you in attainment? 
Today, the answer would be, the State says we are. We hope the 
EPA says we are. But if they say the EPA is about to move the 
ball and lower the standards, then that stops job growth in the 
area.
    So will you seriously consider a review, but a review that 
recognizes that it might be better to allow these new laws, 
which are substantial laws, to continue before you change the 
ozone standard and affect the ambient air quality in Tennessee? 
If you lower them, you will throw every metropolitan area in 
our State out of compliance and bring to a halt a lot of 
important job growth.
    Ms. McCarthy. Well, Senator, I am following through in the 
obligation under the Clean Air Act in a couple of ways. One, 
I'm happy that some of the national rules and some of the 
efforts of individual States have allowed us to start 
entertaining these applications to redesignate, and all of that 
is good news.
    But my job under this particular section of the Clean Air 
Act is to take a look at what the health data, what the science 
is telling us, are the levels that we should be trying to 
achieve that are protective of human health and----
    Senator Alexander. Yes, Madam Administrator, I understand 
that. But these laws are new. They've just begun to take 
effect.
    Ms. McCarthy. Right.
    Senator Alexander. The coal plants are just beginning to 
have these scrubbers installed. The actions we've already taken 
may take us to a level that is fine without having an 
interruption that's unnecessary. That's all I'm asking.
    Ms. McCarthy. Well, Senator, I think maybe the most 
important thing for you to think about is that the proposal 
that we put out looked at a recommendation that I had as the 
administrator that I'm asked to make in these, is that I 
recommended that we consider a standard between 65 and 70 as 
most appropriate for protection of public health. The current 
standard is 75. I have asked for comments up to that level, and 
I have----
    Senator Alexander. Well, this is part of my comment----
    Ms. McCarthy [continuing]. Down to 60.
    Senator Alexander [continuing]. And it comes from somebody 
who likes and votes for clean air. I have one other question.
    Ms. McCarthy. Okay. Thank you.

            TREATMENT OF NUCLEAR ENERGY IN CLEAN POWER PLAN

    Senator Alexander. You talked about the State clean power 
plans. Sixty percent of the country's carbon-free electricity, 
emission-free electricity comes from nuclear power. Wind 
produces 13 percent. Solar produces 1 percent. Now, if you're 
really serious about climate change, if you're really serious 
about clean air, then why would you disadvantage nuclear power 
and treat wind and solar better?
    Again, 60 percent of our carbon-free electricity comes from 
nuclear, yet when we're developing a clean power plan in 
Tennessee under this proposal, we don't get credit--we get 
credit for all of the existing windmills and solar panels we 
have, which don't amount to much, not only in our State, but 
anywhere else, and we get credit for 6 percent of the nuclear 
power generation. And you don't count, for example, the new 
Watts Bar reactor that's coming online, which is 1,500 
megawatts of absolutely clean electricity.
    So what we have in our region is a State that's really 
doing a terrific job of making agreements with the EPA, 
cleaning up the coal plants, building nuclear plants, having 
hydro plants, and they're being penalized, because you're 
preferring wind and solar, which produce little, over nuclear, 
which produces a lot of what we want. It's the energy 
equivalent of going to war in sailboats when the nuclear Navy 
is available.
    Ms. McCarthy. I like the analogy.
    Senator Alexander. Why the difference? You said you didn't 
want to pick and choose technologies, when, in fact, you are.
    Ms. McCarthy. Well, we've received some comments on both 
sides. Did we look at how important the current nuclear fleet 
is to where we're beginning in terms of our challenge of 
reducing----
    Senator Alexander. Well, my time is up, but you don't give 
equal credit to a new nuclear plant and a new wind and solar 
plant.
    Ms. McCarthy. That is--right.
    Senator Alexander. Or to an existing nuclear plant and an 
existing windmill or solar panel, and they ought to be the 
same.
    Ms. McCarthy. That point has been made very clear. That has 
been made very clear in comments, and we're really looking at 
that. And I appreciate it.
    Senator Alexander. Good. Thank you, Madam Administrator.
    Senator Murkowski. We do do a good job of picking winners 
and losers around here, don't we?
    Senator Alexander. Well, and sometimes we're at fault.
    Senator Murkowski. Absolutely. Absolutely. We're not always 
right, and that's the problem. Let's go to Senator Reed.
    Senator Reed. Thank you, Madam Chairwoman. Madam 
Administrator, thank you very much.
    First, let me thank you for the Southern New England 
Geographic Program.
    Ms. McCarthy. Good.
    Senator Reed. Which is doing a lot to restore our coastal 
watershed, and it's not just Rhode Island, it's Massachusetts, 
Connecticut. And Curt Spalding is doing a great job as the 
regional administrator, so thank you very much.
    Ms. McCarthy. Thank you.

                        BEACH ACT GRANT PROGRAM

    Senator Reed. But let me raise at least one issue of 
concern, and that's the proposed elimination of the Beach Act 
Grant Program. We have 400 miles of coastline, probably the 
longest coastline per size of State in the United States. I'm 
guessing, but 10,000 visitors a day to our beaches in the 
summertime, and it's very important. So anything you could do 
to help us restore that, I'd appreciate.
    Ms. McCarthy. Thank you, sir.

                         STATE REVOLVING FUNDS

    Senator Reed. Let me focus on the State revolving funds. 
Absolutely critical. I think in every part of the country, 
there is a recognition that infrastructure is either inadequate 
or obsolete, needs to be replaced or needs to be built because 
of the growing areas in some parts of the country. I don't have 
to tell you, because you talk just like I do really.
    We have wooden water piping systems in certain communities 
that are 100 plus years old.
    Ms. McCarthy. Isn't it amazing?
    Senator Reed. Yes.
    Ms. McCarthy. In a good way amazing.
    Senator Reed. Yes. It's amazing, but they're not going to 
last that much longer. And there is a top line increase in the 
budget.
    Ms. McCarthy. Yes.
    Senator Reed. I appreciate that. But what I find 
interesting and want to ask you about is there is a shift from 
the clean water revolving fund.
    Ms. McCarthy. Yes.
    Senator Reed. Essentially sewage piping, which is critical 
to our ability to mitigate flood risk, to resilience to climate 
change, to improve water quality, a shift there into the 
drinking water account, which obviously, it's necessary also. 
Why are you shifting limited resources? Frankly, even with this 
increase, it's a fraction of what we need to just stay on pace. 
So why are we shifting it from drinking water to clean water--
or excuse me, the other way, clean water to drinking water?
    Ms. McCarthy. Well, we're trying to take sort of a current 
look at where the greatest need is as well as look at how we 
can be a little more comprehensive than reliance on SRF funds. 
I think as you can see from discussions last year, we're doing 
a better job in the President's budget at moving almost a 
little close to a half a billion higher in our recommends here, 
which is a little bit short of what was funded last year in the 
2015 enacted.
    But the shift was because of where the greatest need is. We 
see $348 billion in need in drinking water supplies today that 
extend over the next 20 years. In the clean water, our 
wastewater facilities, we see the need at $298 billion.
    Now, I realize that that's a close call either way, but we 
really wanted to make a concerted effort to recognize that we 
are facing some very significant drinking water challenges 
today. We've seen problems over the past year that we have 
never seen before, and we wanted an opportunity to continue to 
move forward.
    This is not a dramatic shift but one I think that is a 
signal that we have been more heavily investing in wastewater 
for a while, and we're trying to balance that out.
    But I wanted to also indicate that the challenge that 
Congress or opportunity Congress gave us with the Water 
Infrastructure Finance and Innovation Act (WIFIA) is something 
we want to tee up for an opportunity in the future. We're going 
to be spending funds to at least stand that up and be ready to 
catch if there is opportunities to fund grants in those ways.
    But also there is an opportunity, I think, with our new 
Water Infrastructure and Resilience Finance Center to really 
look at public-private partnerships and how to bring them to 
the table. We just need a lot more investment than we're ever 
going to get with our State revolving fund, and we need to 
think creatively about how water is going to be essential for 
our continued economic growth.
    The private sector recognizes that and many are coming back 
to the United States to enjoy the clean water we have here for 
their manufacturing. We have to work with them to support the 
infrastructure in a more robust way.
    Senator Reed. Right. And there's another challenge, too, 
and that is--and this might be reflected in the need you 
perceive for drinking water, that is the climate changing 
issues that are out and about.
    Ms. McCarthy. Yes.

                         STATE REVOLVING FUNDS

    Senator Reed. Which, you know, a lot of the estimates that 
were made about the State revolving funds were assuming sort of 
a steady state and not the dramatic changes we've seen, 
particularly on the West Coast and in the Southwest, in terms 
of drought, in terms of the need to move water further. So that 
would be another reason why we need more----
    Ms. McCarthy. It is. We're looking at the harmful algal 
blooms that we're seeing, both in Senator Leahy's area at Lake 
Champlain but also certainly in the Great Lakes, in particular, 
western Lake Erie. They're actually growing everywhere, and 
that is, in many ways, a reflection of the increased 
temperature that is allowing those to grow, and the cyanotoxins 
are getting to be something that I think many of us are very 
concerned about managing more effectively in our drinking water 
supply.
    Senator Reed. And some of that will require additional 
infrastructure.
    Ms. McCarthy. It will, yes.
    Senator Reed. Additional revolving fund resources, etc.
    Ms. McCarthy. That's correct.
    Senator Reed. In fact, I would assume, as you're sitting 
down with your staff and your predecessor 10 years ago was 
making a bold estimate of X, that probably is 2X or something.
    Ms. McCarthy. Well, it certainly couldn't have factored the 
changes we're seeing today.
    Senator Reed. Right. Well, thank you very much. We want to 
work with you to understand better the shift of the resource 
funds.
    Ms. McCarthy. Thank you.
    Senator Reed. And try to be helpful in providing more 
resources. Thank you.
    Ms. McCarthy. I appreciate that.
    Senator Murkowski. Thank you, Senator Reed. And I 
appreciate your leadership on these areas of the State water 
revolving funds. It's something that, when you were chairing 
this subcommittee and I was ranking, we worked together on it. 
It was a good thing.
    Senator Reed. You mean when I was over there, way over 
there? No.
    Ms. McCarthy. He looks more relaxed than last year. That's 
all I have to say.
    Senator Reed. No, this is a fun hearing this year.
    Senator Murkowski. It is good.
    Senator Reed. But I can't leave without commending you for 
your leadership and for your collegiality. Thank you.
    Senator Murkowski. Thank you. Good to work with you. Let's 
go to Senator Cassidy.

                    WATERS OF THE UNITED STATES RULE

    Senator Cassidy. Sorry, I had to leave to another 
subcommittee hearing, so you may have answered some of these 
questions already.
    On the Waters of the U.S. Rule, do you have a cost-benefit 
analysis?
    Ms. McCarthy. Do I have--I'm sorry?
    Senator Cassidy. A cost-benefit analysis. How much will 
this cost?
    Ms. McCarthy. Yes. There is a cost-benefit analysis. We're 
actually doing a revised cost-benefit analysis for the final 
rule as well.
    Senator Cassidy. Now, is this the cost to businesses, local 
governments, homeowners, etc.? Does it include that as well? So 
there's the direct cost to the Federal Government, obviously.
    Ms. McCarthy. Right.
    Senator Cassidy. But it's actually the indirect cost. And 
in fact, I was reviewing one of your documents, and it said 
actually the indirect cost is the greater of the two, that to 
the Federal Government relatively low, that to private 
industry, to individuals, small businesses, etc., relatively 
great.
    Ms. McCarthy. Well, what the costs are and the indirect 
costs that we're calculating are costs associated with 
mitigation should someone seek to pollute or otherwise damage a 
water that is jurisdictional. That is what----
    Senator Cassidy. So the expanded----
    Ms. McCarthy [continuing]. There is no cost unless you're 
actually wanting to destroy or pollute a water of the United 
States as it will be----
    Senator Cassidy. But in your rule, you expand your 
jurisdiction, so there will be more waters. Again, as I'm told, 
a seasonal stream in a forest that when it rains it fills up 
would now be under jurisdiction. And so there would have to be 
not just if there is some pollutant which enters, there would 
have to be some mitigation. But it's also the cost of, oh, my 
gosh, we got to comply at the rule and make sure something 
doesn't happen, and they would have to think about not 
necessarily environmental problems, but how to keep from 
getting sued by the EPA.
    So it seems a little bit more than just if they spill oil 
that they have to clean up. It seems substantially more than 
that. Wouldn't you agree?
    Ms. McCarthy. I don't believe that we are expanding the 
jurisdiction of the Clean Air Act, and I think----
    Senator Cassidy. I'm sorry, Clean Water Act.
    Ms. McCarthy. I'm sorry, Clean Water Act.
    Senator Cassidy. Now, in your----
    Ms. McCarthy. I'm getting my media confused. I apologize.
    Senator Cassidy. That's okay. I got that from your document 
that says there's going to be a 3 percent increase in the 
waters under your jurisdiction, which 3 percent is small, until 
you think of the Federal Government and until you think of the 
United States. United States, 3 percent is pretty big in terms 
of absolute numbers.
    Ms. McCarthy. I think what that number actually reflected 
is the fact that we are going to be more precise about waters 
that require to be protected under the Clean Water Act. It is 
not an indication that we are expanding jurisdiction or that 
anyone will have to worry, particularly in agriculture, over 
the impact associated with this, because we continue to 
maintain all of the exemptions and exceptions in the current 
Clean Water Act.
    Senator Cassidy. Now let me ask you then on something else. 
Thank you for that answer.
    Ms. McCarthy. You're welcome.
    Senator Cassidy. I'll see if my agriculture people are 
satisfied, but I suspect they----
    Ms. McCarthy. Well, have them call. I've been meeting with 
folks. I would be more than happy to talk to people if there 
are concerns, and we can certainly take their concerns into 
account as we're finalizing the rule.

                            CLEAN POWER PLAN

    Senator Cassidy. Now, your carbon rule, which you know 
better than I, so I'm going to speak kind of from a gestalt if 
you will.
    Ms. McCarthy. Okay.
    Senator Cassidy. Senator Vitter and I had a field hearing 
last year in Lake Charles, which is Louisiana, which is having 
a big increase in investment. And the wonderful thing about 
this is they're going to create like 20,000 blue collar jobs 
over the next decade, I mean, really good jobs with good wages, 
good benefits.
    So when we came in, we're talking about the ozone rule and 
need for credits and how you're going to comply. And someone 
says, what will happen is a bigger company will buy a smaller 
refinery or plant and just shut it down, and they will take 
credit for shutting it down. Now, that company may move their 
operations overseas, but in the locality or the jurisdiction, 
Region 6, I suppose, they will show that they are on net not 
increasing the amount of whatever you are concerned about 
emitting.
    Now, my concern about that is that the--my concern about 
that is that all those jobs are lost. So we're complying 
shipping jobs overseas, and we're not really complying, because 
carbon is a global emittent. Now, that's just common sense, but 
for some reason, that argument doesn't seem to weather very 
much.
    It looks like I'm 5 minutes over. Madam Chair, is that 
correct?
    Senator Murkowski. You're not 5 minutes over.
    Senator Cassidy. Thank you.
    Senator Murkowski. I'm being told you're 5 minutes over. 
You're a little bit over.
    Senator Cassidy. Well, I'll finish with that, if you could 
just answer to that. And I apologize for going over. I don't 
know how that happened. I thought I was keeping an eye on it.
    Ms. McCarthy. Senator, I want to assure you that we believe 
that this rule is designed in a way that would reduce carbon 
emissions from fossil fuel power plants in a way that would 
actually continue to allow the growth of the economy and jobs.
    The scenario you are talking about is not a scenario that 
we had ever contemplated or we believed would ever come out of 
a rule that is properly designed that we can reduce carbon 
pollution while we continue to grow jobs.
    Senator Cassidy. My reply will be, that's what industry 
tells me that's going to happen.
    Ms. McCarthy. I understand. But I don't believe that that 
is a legitimate compliance scenario under any standard that EPA 
has ever initiated, including this one.
    Senator Cassidy. Okay.
    Senator Murkowski. Thank you, Senator Cassidy. Senator 
Daines.

                   IMPACT OF EPA REGULATIONS ON COAL

    Senator Daines. Ms. McCarthy, thank you for being here 
today. As you know, coal is an important fuel for electricity, 
not only in my home State of Montana, but nationwide. In fact, 
more than half our electricity in Montana comes from coal, 
nationally, about 40 percent.
    It is all about our good paying jobs in Montana. It's for 
our tribal members in Montana as well as generating nearly $120 
million in tax revenues that we depend on for our schools, our 
teachers, our infrastructure. In fact, it's Montana coal that 
goes out to the Midwest and powers Detroit Edison that powers 
our automobile industry. And so it's very, very important here 
we maintain and grow this industry. And the bottom line is, it 
keeps electrical prices low and puts food on the table for 
Montana families.
    But I can tell you, we are very frustrated. We are 
frustrated with the lack of meaningful consultation from your 
agency as it's been developing the regulations for coal-fired 
plants. Studies have shown that wholesale electric prices will 
spike as high as 25 percent in Montana and Montana households, 
which results in about $110 a year in increased prices.
    I'm very concerned your agency is not taking into account 
potential impacts back in Montana. Let me give you an example. 
There was a listening session regarding these proposed regs. It 
was two States away from Crow Agency, which is really ground 
zero for much of our coal activity. That's the headquarters of 
the Crow Tribe of Montana. Two States away, 500 miles. That 
would be the equivalent of having a listening session in 
Washington, DC, and telling the folks in Detroit to drive to 
Washington to let their voices be heard.
    The Crow Tribe, in fact, there's two Crow Tribe members 
here today, they rely on coal production for their jobs. In 
fact, two-thirds of their annual budget depends on coal. This 
is how we fund the Crow Elder Programs, higher education for 
Tribal Youth and other essential services for the 13,000 rural 
citizens.
    In fact, the unemployment rate today in Crow country is 47 
percent. Without these coal jobs, it goes up north of 80 
percent unemployment. It is a path into poverty if we eliminate 
these coal jobs. Ninety percent of the coal mines and the mine 
near Crow Agency is sold to power plants in Minnesota, which 
would be strongly encouraged to retire their plants because of 
the EPA's Clean Power Plan standards.
    In fact, the Senate Committee on Indian Affairs, which I 
serve on, we just held the first ever energy and jobs Indian 
affairs U.S. Senate field hearing in Crow Agency in Montana. We 
invited the EPA to testify. They declined. And we think it's 
very important. In fact, I again make an offer, if you come to 
Montana, I'll pick you up in my Ford, and we'll drive from 
Billings. And I'd love to have you really listen to the people 
there in Crow country and hear their heartfelt concerns around 
where this is all headed for their livelihoods in Montana.
    So we had this great field hearing. We had 200 people show 
up in a room, primarily from the Crow Tribe. And so my first 
question, have you had a chance to review the input that was 
given at that field hearing? It just happened right after 
Easter.
    Ms. McCarthy. Yes, I myself have not. I have had certainly 
a number of discussions with the folks who work in Montana that 
are looking at developing plans. I've been encouraged by those 
discussions, because as far as I know, coal will continue to be 
a significant source, and they feel there's many opportunities 
to move forward under compliance.
    If there are concerns that we haven't heard, or if there's 
discussion I should catch up with you on, I'm more than happy 
to do that.
    Senator Daines. Yes, I would like to get a follow up, so 
you could hear directly from the Crow people. We had a member 
from the Navajo Tribe come up as well and testify at that 
hearing. In fact, our attorney general testified as well. He's 
filed joint comments with the Crow Nation on the rule. And I 
don't know who's reviewed them. Have you seen those comments 
yet?
    Ms. McCarthy. Well, we received close to 4 million comments 
on this rule, so I haven't reviewed them all myself, but I 
certainly can consult with my staff who are looking at all of 
them now.
    Senator Daines. Yes, I just would ask, you know, we've got 
a nation, the Crow Nation, as well as our attorney general, to 
make sure that that testimony is heard. Most of their comments 
surrounded the impact that's going to happen in the Midwest 
utilities who are customers of Crow coal and how their concerns 
can be mitigated.
    I know there was discussion about working with the 
Governors, and so forth.
    Ms. McCarthy. Yes.
    Senator Daines. Our Governor also filed comments on the 
EPA's Power Plan.
    Ms. McCarthy. Yes.
    Senator Daines. Our Governor is a Democrat.
    Ms. McCarthy. Yes.
    Senator Daines. He's filed comments on this, and we've all 
expressed concerns over these proposed changes, importantly, 
allowing the States, let me just say this, to submit their own 
implementation plans does nothing to fix the issue that the 
Montana Crow Nation will lose, because their customer base, 90 
percent of this coal, is used outside of Montana. So it's 
really dependent on what Minnesota and Michigan are going to be 
inputting on these rules, not just what Montana has to say on 
it, because we're mining it and shipping it out to the Midwest.
    So I guess my question is, when can you review the input 
from that field hearing, because the livelihood of these Crow 
tribal members depends on what happens with the coal industry?
    Ms. McCarthy. Well, I want you to know, we will look at 
each and every comment. I'm more than happy to look at those 
comments myself, and I will certainly do that.
    Senator Daines. I appreciate that, because again, what's at 
stake here is literally, there is not another path right now 
for good paying jobs in the Crow Reservation without these coal 
jobs.
    Ms. McCarthy. Well, thank you for calling it to my 
attention. I will do that.
    Senator Daines. I appreciate that, and thanks for looking 
into it.
    Senator Murkowski. Senator Cochran.

              OZONE NATIONAL AMBIENT AIR QUALITY STANDARDS

    Senator Cochran. Madam Chair, thank you for convening this 
hearing specifically to review EPA's budget request for next 
fiscal year, 2016.
    EPA's mission is a very big one and a very important one. 
We understand that. Helping protect human resources, human 
health, and preserving the environment are all very worthy and 
important considerations for this subcommittee.
    So it's not unexpected that EPA's regulations and proposed 
regulations sometimes run counter to our Nation's economic 
interests, and that shouldn't be surprising. But the balancing 
of those interests in a fair-minded way that's consistent with 
our national economic interests as well as our health interests 
is something that we're trying to approach to a state of 
reasonableness that will be applauded and appreciated.
    The Senator from Louisiana raised a question about 
agriculture and the fact that many States are concerned about 
proposed rules to reduce ground level ozone standards. What is 
the status of your work in that area, and what do we tell 
agricultural and timber resources, people who are involved in 
that in our State, what the goals are in----
    Ms. McCarthy. Well, the status is that the courts have told 
us that we had to move forward with a review of our Ozone 
National Ambient Air Quality standards. We have put a proposal 
out that looks at current science and makes some 
recommendations. The comment period on that proposal closed and 
we are looking at an October deadline that the courts have 
given us to finalize that rule. Let me make sure I got that 
exactly right. Yes.

                              OZONE LEVELS

    Senator Cochran. How are you planning to take into account 
naturally occurring ozone levels and how that impacts, too, on 
the bottom line?
    Ms. McCarthy. Actually, the proposal itself, which we 
solicited extensive comment on, does talk about background 
ozone levels, because in some areas of the country, it is high, 
and we're looking at how much that actually impacts an ability 
of a State to achieve a health-based standard.
    But in the rule itself, our obligation is to look at the 
science as to what is protective of human health and welfare 
and what's sufficient protections. Then when we implement a 
standard, we pay careful attention to what we're requiring 
States to do in order to comply. We're accounting for 
background levels to ensure that States have an ability to 
achieve the levels that are required.
    Senator Cochran. In that connection, do you have occasion 
to consult with representatives of the Department of 
Agriculture or with local agricultural interests? I'm just 
thinking about farmers in my State of Mississippi who feel as 
though EPA doesn't have any--or hasn't had many, if any, 
hearings in public in the Mississippi Delta, where agricultural 
interests are so important, to talk about some of these 
conflicts that are going to naturally arise because of the 
nature of your responsibilities and the interests that the 
general public and a large segment of our economy has in the 
well-being of agriculture.
    Ms. McCarthy. Well, this rule is particularly interesting, 
because we are proposing a secondary standard. That has been an 
issue that the agriculture industry has had significant input 
on, as a member of a science advisory board quite a while ago 
to advise us on that. We also have a Federal advisory committee 
under the Clean Air Act that gets together and talks about 
these issues.
    I'm quite certain that the agriculture industry has also 
provided significant comment on the rule that we proposed. What 
we're looking at in terms of our proposal is establishing a 
primary standard for public health but recognizing our 
obligation that the court confirmed to us, that we have to look 
at establishing a more reasonable secondary standard. We 
proposed a secondary standard that would be met through the 
obligations that the States would accrue to achieve a primary 
standard.
    So we will certainly continue to listen to the comments 
that agriculture has provided to us, but it's not clear to me 
that there are additional concerns with this rule that are 
unique in some way. I'm more than happy to take a look at those 
comments in the traditional way. I think the concern might be 
uniqueness of establishing a secondary standard, which we feel 
will not be particularly challenging in terms of an 
implementation process. I'll take a look at those again, and 
we'll give them due consideration.
    I share your interest in making sure that we're moving 
forward with our environmental rules in a way that is entirely 
consistent with economic goals as well. That remains my gold 
standard, as it does yours.

                           SECTION 319 GRANTS

    Senator Cochran. I also understand that section 319 grants 
are very helpful to conservation districts and local 
governments who are working to meet EPA erosion and sediment 
control requirements. Your agency has indicated that the 
implementation of watershed-based plans helps States meet water 
quality standards. And our State's conservation district 
members have worked with the Department of Agriculture trying 
to work out how to deal with this so that we benefit both 
interests.
    Ms. McCarthy. Yes.
    Senator Cochran. What is your agency saying in response to 
the question that this is a positive step in improving water 
quality and it's working, if it is, to improve the environment 
as well as attract additional grant resources to eligible 
areas?
    Ms. McCarthy. Our effort to support nonpoint source 
pollution 319 grants reduction is an extremely important effort 
for us. I know that in fiscal year 2015, the level of funding 
was $159 million. We are proposing in this budget in 2016 to 
increase that by $6 million, so that we can achieve $165 
million in 319 grant allocations. That will give us an 
opportunity for about 30 additional watershed restoration 
projects for the overall problem. Mississippi, in particular, 
will see an increase from $2.9 million to $3 million.
    Now, I realize that we'd all like to have lots more, but I 
think it's a continued indication that EPA thinks these 
programs are very important, and we want to continue to support 
them as best we can.
    Senator Cochran. Thank you very much. My time is expired.
    Senator Murkowski. Thank you, Senator Cochran, and I 
appreciate your leadership on the full committee. Senator 
Blunt.

                              LEAD MINING

    Senator Blunt. Thank you, Chairwoman. It is nice to have 
you here.
    While people are inviting you to travel, by the way, I 
wanted to talk a little bit about a lead issue. This is Doe Run 
lead mining in Missouri. It's my understanding that there are 
some discussions going on that may bring final resolution to 
those issues involving EPA and Doe Run.
    If sometime you can stop, I'd like you to see what happens 
in that part of our State, which is where, I believe, most of 
the lead in the country is. There's some natural outcroppings 
of lead and other things. And I think that Doe Run is 
developing some new technology that will change the way they 
smelt that lead to reduce emission by at least 90 percent.
    Ms. McCarthy. That's right.
    Senator Blunt. And so I know you've kept in that 
discussion. Sometime if we could get you to stop, I think it 
might be helpful just to see both the opportunity and the 
challenge.
    There's a reason that Moses Austin moved to Missouri before 
he moved to Texas to become a lead miner, and that's been our 
sort of lead mining center even before that part of the country 
was added to the United States, and so it obviously has its own 
challenges. And anything you can do to personally stay 
connected to that, I think there's a solution here within 
reach, and that solution, as everything else at the Department, 
obviously benefits from the more you know about the problem, 
the jobs included, the alternative places we have to go to get 
lead if we don't get it in our own country, I think are 
helpful, and I'd just encourage that.
    And I would love for you to put that on a trip--it's close 
to St. Louis, easy to get in and out, and I'd love to see you 
come sometime.
    Ms. McCarthy. Actually, I was in Missouri not too long ago. 
I have also met separately at EPA with folks from Doe Run. I 
know that we have an opportunity for some mediation coming up. 
I do want to let you know that I will continue to pay attention 
to this. If there is a resolution we can reach, you can rest 
assured that we're going to be really trying to find that 
resolution.

                       ENVIRONMENTAL REGULATIONS

    Senator Blunt. Well, good. I'm glad to know that. I think 
you're moving in that direction, and I hope we wind up at a 
good place there.
    Another question I wanted to ask, there's some experience 
in our State, but really all over the country, communities all 
around the country are facing regulation on wastewater, on 
storm water, on solid waste, on air quality, and many of them, 
more than one of those coming at a time--as far as I know, 
there's only one place where there's sort of a guideline 
already issued. The affordability of water is based on a 2.5 
percent median household income metric.
    But communities can be involved in many of these things at 
one time. They really only have one source of income. No matter 
how many problems they're trying to solve, there's really only 
one source of income.
    And I'd like any thoughts you might have on the ability 
that EPA might have to assess the regulations in a cumulative 
way. I think Springfield, Missouri is one place, my home town, 
where they've got a proposal before Region 7 now of here's a 
long-term plan to deal with a number of problems in the 
priority that I'm sure that the EPA would have a lot to say 
about the priority, but a price tag that can be afforded, 
because again, let me go back to there's only one place to pay 
this bill, and that's the people who live in the community, 
either through the actual bill itself, the water, the sewer, 
the whatever bill, or a tax bill that they also would pay. And 
some kind of cumulative look at these as they come before the 
Department, I think, could be really reasonable and helpful. 
Your thoughts on that?
    Ms. McCarthy. Well, we have been looking at these issues, 
and I know we've been working really closely, primarily with 
the Conference of Mayors, to understand how we could better 
look at the affordability issues, because it is unquestionably 
very challenging.
    We've been trying to encourage integrated planning so that 
every community doesn't think about these issues separately but 
thinks about them in a coordinated way. We've had some success 
in looking at integrated planning with water and wastewater. 
We're trying to understand how storm water could also be 
factored in as well.
    We have revised our affordability criteria. I can't say 
that I can answer your question as to whether or not there is a 
way in which we can look at a broader context of planning 
efforts and requirements, because every statute has different 
requirements about how we look at cost in consideration in 
making decisions.
    But I certainly understand the direction in which you're 
thinking, and I think it is a direction that EPA has been 
willing to head to the extent that the laws allow us to do 
that. We have had more success in terms of working with 
communities to actually reopen even past consent agreements to 
look at opportunities for things like green infrastructure, 
which can really help with storm water, can also help with 
drinking water and wastewater issues.
    So to the extent that we can find an opportunity to keep 
looking at the most economical opportunities to achieve these 
environmental goals that we all aspire to jointly and do it in 
a way that continues to be consistent with the law, is we will 
continue with those discussions. If there is something in 
particular, a forum for that that you'd like to suggest, I'm 
certainly more than happy to think about how we would do that.
    Senator Blunt. Well, again, I think Region 7 has a 
proposal.
    Ms. McCarthy. Yes.
    Senator Blunt. And a number of national groups, I'm told, 
have looked at it and said this could be the model for how we 
move forward.
    Ms. McCarthy. Okay.
    Senator Blunt. If there are legislative obstacles to that 
kind of model, I believe I would be willing and others would be 
willing to help you remove some of those obstacles, because 
what you can't have is a community that can't afford to do what 
needs to be done, and no matter how they set the priorities, if 
your hands are tied, the bill can't be paid. And that's 
terrible for the community, and whatever you're trying to 
achieve there is not going to happen.
    Ms. McCarthy. Well, thank you, Senator, for raising it.
    Senator Blunt. All right. Thank you. Thank you, Chairwoman.
    Senator Murkowski. Senator Hoeven.

                      WATERS OF THE UNITED STATES

    Senator Hoeven. Thank you, Madam Chairwoman. Administrator 
McCarthy, the Waters of the U.S. Rule, WOTUS, is creating 
tremendous problems for our farmers and ranchers, tremendous 
uncertainty, and I think it should be rescinded. And 
undoubtedly, you are hearing many of the same concerns, not 
only from farmers and ranchers, but from many others, many 
other industry sectors and just private individuals in terms of 
their private property rights.
    My question to you is, what are you doing about it, and how 
are you addressing these concerns?
    Ms. McCarthy. Well, Senator, we certainly are going out and 
about. We've had more than 400 meetings with individuals as 
well as groups of stakeholders. We have received a number of 
comments. I've even tasked my local government advisory 
committee. They've been great at going out and even extending 
the reach that we can have on our own to take a look at what 
these issues are and how best to advise us to address them.
    I think I understand the issues that folks have raised and 
their concerns. I think my concern is to make sure that I'm 
developing a final rule that respects those, that fully 
integrates those concerns and provides as much clarity and 
certainty as we can. I know that there have been folks in your 
State that have raised concerns.
    We've met with people. I certainly have individually. We'll 
continue to do that to make sure that the final rule reflects 
their concerns and establishes more certainty without creating 
more layers of bureaucracy or more extensive reach of the 
jurisdiction of the Clean Air Act. Those are things we cannot 
do and we will not do. But what we will do is hopefully use--
and I shouldn't say hopefully--we will use the best science 
available to us, so we're protecting only what needs to be 
protected in insuring that people have certainty to continue to 
do their work as they've been doing it.
    Senator Hoeven. But your authority extends to navigable 
bodies of water. How can you issue a rule like WOTUS that goes 
beyond your legal authority?
    Ms. McCarthy. Actually, I'm doing exactly what the Supreme 
Court told us. It was as far back as more than 10 to 15 years 
ago that the Supreme Court told us that it's not navigable in a 
traditional sense, it's protecting waters that are important 
for drinking water. So we have to look not just at those 
navigable waters but all the waters that feed into those that 
have an ability not just to be connected but significantly 
impact the quality of those downstream waters that are so 
important to drinking water protection.
    That's what they've told us. They've told us we have to 
look at what they call a significant nexus and that we have to 
look at waters that act as an ecosystem. We've done years of 
research trying to answer those questions so that people could 
be certain about what their obligations are and we could be 
certain that we're protecting the drinking water that's so 
important for people across this country.
    Senator Hoeven. Under that argument, what is the limitation 
on your authority?
    Ms. McCarthy. The limitation on our authority is that we 
are only supposed to protect those waters that are necessary to 
protect those downstream areas. Period.
    Senator Hoeven. But again, that leaves it entirely subject 
to your interpretation, does it not?
    Ms. McCarthy. Actually, no. That's what this rule is trying 
to do is to provide clarity. That's why we put out a rule. 
That's why the rule is so important to finalize.
    Senator Hoeven. But it's done just the opposite. It's 
created even more uncertainty and indicated to, like I say, not 
only farmers and ranchers but private individuals that there is 
no limit to your authority, it's whatever you decide you want 
it to be, and that's the problem.
    Ms. McCarthy. Certainly, that's never--I don't think that 
EPA has ever asserted jurisdiction in that way. We're working 
very hard with the Army Corps to understand what our history of 
knowledge is now, about where we find it important to require 
mitigation or to protect, and to make sure that we're as clear 
as possible in a final rule, so that people can be assured that 
we are not expanding. This is not unlimited, and to make sure 
that we not only say what's in, but we'd be a lot clearer about 
what is out.
    Senator Hoeven. I would encourage you to talk to farmers 
and ranchers, private landowners, as well as industries, the 
whole gamut of industry sectors on this rule, and I think 
you'll find that they're very concerned about it and that it is 
very much a problem for them.
    Ms. McCarthy. I think, Senator, you're right. There are 
absolute concerns, and we're taking them with great 
seriousness.

                          COAL ASH LEGISLATION

    Senator Hoeven. Let me switch to coal ash legislation that 
I put forward on a bipartisan basis and will do so again. 
Actually, I have spent a lot of time with EPA working to get 
something that I think your people feel is workable.
    I know you've come out with your regulation in regard to 
coal ash.
    Ms. McCarthy. Yes.
    Senator Hoeven. But that regulation really relies on 
citizen lawsuits for enforcement. So my question is, wouldn't 
it better to actually pass legislation that addresses both coal 
ash recycling as well as impoundments and give the States 
primacy in terms of enforcement rather than relying on citizen 
lawsuits?
    Ms. McCarthy. Senator, we continue to be available to 
provide technical assistance, and I will let Congress consider 
what they wish.
    But the one thing I would just remind you is that I think 
there's a significant opportunity under the coal ash rule that 
we proposed. I think that the industry was pleasantly surprised 
by the final rule in how much we paid attention to the comments 
and made it reasonable and rational.
    There is another mechanism that takes away this citizen 
lawsuit enforcement type system and puts it directly in the 
control of the States, and that's if States want to take 
control of these facilities in terms of regulating them 
themselves under their solid waste master plans, which we would 
work with them very closely on. That would make it regulated by 
the State, not by the Federal Government, and that would ensure 
States having ability to even extend some of the timelines in 
our rule if they felt like that was most appropriate and the 
data indicated that that was advisable.
    So there are other mechanisms that we're working with 
States on, but we're more than happy to continue to provide 
technical assistance on anything that you would be considering. 
Our judgment in the end will certainly be reserved to whether 
or not we think that it will achieve the environmental goals 
we're all looking for.
    Senator Hoeven. I understand that, but I'd encourage you to 
look at the legislation, because I think, in many respects, it 
accomplishes what we're trying to do both in terms of coal ash 
recycling, good environmental stewardship as far as management 
of impoundments, and does it in a framework that provides more 
certainty to the industry, which is a new benefit. So I'd 
encourage you to take a look at it.
    Ms. McCarthy. Okay, sir. Thank you.

                      COAL FIRED ELECTRIC INDUSTRY

    Senator Hoeven. And ask you to work with us on it.
    And Madam Chairwoman, if I may, just one final.
    There's just a tremendous amount of regulation that has 
come out in regards to use of coal for energy production, coal 
fired electricity. In our State, we not only convert coal to 
electricity but also to natural gas, and you've actually been 
out to see the facility.
    Ms. McCarthy. Yes.
    Senator Hoeven. And I appreciate you coming out. But 
there's so many regulations coming out that it's making it very 
difficult and very expensive for the coal fired electric 
industry to continue to operate their plants.
    And that effect is that we're exporting more coal than 
ever, and other parts of the world are using coal to produce 
energy with environmental stewardship that is not as good as 
the environmental stewardship in this country. And it also is 
having the effect of slowing down our development and 
deployment of the new technologies that will produce energy 
both more cost effectively and with environmental stewardship.
    So I'd ask, why can't you take a look at all of that and 
say, hey, we need to find a way to make sure that we're working 
with the industry to actually help them deploy these new 
technologies, and it has to be cost effective, right? Because 
if it's too costly, they just go out of business.
    Ms. McCarthy. Yes.
    Senator Hoeven. So you defeat that development and 
deployment of the new technology. How do you actually help our 
industry work to deploy these new technologies?
    Ms. McCarthy. Well, I certainly agree with you that we have 
to continue to work with the industry. I think, all in all, we 
have managed to get through a number of rules and to recognize 
the overlap between those rules and how they have to complement 
one another and be reasonable. I think even with the advent of 
the Clean Power Plan, we're still seeing, in 2030, a 
significant amount of coal being used.
    The challenges of today are not just EPA regulations, but 
the marketplace itself, which, with the advent of inexpensive 
natural gas, coal, in many places, is noncompetitive. The age 
of our coal fleet now, it's going to be an average of 42 years 
or something. So there are challenges here where investments 
need to be made.
    I think there are opportunities for technology 
advancements. We're trying to recognize some of those, and in 
the President's budget, it includes some incentives for DOE to 
be able to develop and help develop and support a new range of 
technologies, like carbon capture and sequestration, to see if 
there are opportunities to lower that cost even more than it is 
today, so that it's more readily available.
    I have no doubt that innovation will happen. I think the 
thing that I'm hoping to do is to recognize that every fuel has 
an opportunity to continue. My rule just needs to be reasonable 
about making a path forward to reduce carbon pollution, but not 
to make choices, so that in the end, I'm not going to make a 
choice between what fuel is best. I'm going to look at 
reasonable strategies to work with States to lower carbon 
pollution while at the same time trying to support and send a 
very long-term market signal that innovation will be welcome, 
innovation will be supported, and we will, as a Federal 
Government, be able to support the technologies of the future.
    Senator Hoeven. Madam Chairwoman, thank you for the 
indulgence, going over my time.
    Ms. McCarthy. Thank you, Senator.

                       ENVIRONMENTAL REGULATIONS

    Senator Murkowski. No, all important issues.
    Administrator McCarthy, your words ring true to all of us. 
I don't think that we're trying to get to a different point. 
But, I must convey the sense of frustration, because as you're 
saying, we must use these technologies to get us to that point 
where we have cleaner water, cleaner air, some of what we see 
come out of the agency is so confounding to common sense.
    One simple example that we have up in Alaska that I 
mentioned, that you and I have talked about, is our remote 
backup generators. We thought we had worked out an acceptable 
definition of what rural Alaska is and now we have a different 
Clean Air Act rule. We've got the sea ice rule. The definition 
of Alaska isn't updated.
    So what it's doing, in this land of unintended 
consequences, is saying even though you have an older diesel 
generator that needs to be replaced, compliance with this new 
rule is so expensive, that our rural utilities are in a 
situation where they're not going to replace their older 
generators, no matter how much they might be polluting, because 
of these new compliance costs. You have this impact where you 
know where you want to go, but it's our own regulations that 
are limiting our ability to get there.
    Another example is what we're doing with our small 
incinerators up north and trying to wrestle through this 
problem. On the one hand, you're saying, we're going to hold 
you to these standards for emissions for your air, which you're 
not going to be able to meet up there. And so the alternative 
is we're going to remove this waste by slinging loads through 
helicopters that are going to be going back and forth over the 
North Slope. You want to talk about increased emissions.
    And this is where the frustration is. What you've heard 
from members and the subcommittee here today is this 
frustration because we're on the ground with these folks. 
Whether it's the Crow Nation in Montana, farmers and ranchers 
in North Dakota, the people in Kentucky in the coal mines, or 
my miners in the 40 Mile District, they're saying, hello, is 
anybody using common sense back there in Washington, DC.
    You tell us that you want us to weigh in. You want us to 
come to these hearings. You want us to submit my comments. Let 
me tell you, for these miners, these small operators out in the 
middle of the interior, for them to put pen to paper and put 
comments to some face back in Washington, DC, this is--you want 
to talk about true foreign correspondence, this is it. But 
they're willing to do it, because they are so desperate, and 
they so need to know that they are being heard.
    You have said, we've got all these comments coming in, 
we're weighing them, we're considering them. But then at the 
end of the day, what we get are, well, we've got these new 
regulations. What they're doing is, they are either putting 
expectations that, in a place like Alaska or in places in rural 
America, it's impossible, if not highly unexpected, 
unanticipated, the costs are so high, you just can't get there 
from here.
    And so we talk about flexibility. And you're using the word 
clarification. For so many of the people that we are hearing 
from, it's not clarifying. It is confusing and confounding and 
making people very angry at their government. Because they're 
saying, why aren't you guys listening to us? And as those who 
represent these farmers and ranchers and miners and Alaska 
natives and Indians, we're going back to them and saying, we're 
pounding as hard as we can on this one.
    But I hope that you truly are listening to the concerns 
that people have. Nobody that I'm talking with is saying I want 
to rape, pillage, ruin, I don't care about the air, I don't 
care about the water. We do care. We do care. But we need to 
have the ability to provide for livelihoods. And sometimes, 
these livelihoods are not clean. You get pretty grubby as a 
placer miner. You probably get pretty grubby in the coal mines 
in Kentucky. But it's good, honest work for these people and 
their families.
    They want to be there for clean air, clean water, but work 
with me, government. And, this is where our disconnect is, and 
this is where I have my constituents coming to me and saying, 
``Lisa, we're counting on you. You've got to shut the EPA down, 
and you got to do it yesterday.'' And I remind them that there 
is a clear and a legitimate role for the Environment Protection 
Agency.
    We want our environment to be protected, and we need to 
have these permits issued. We want to have levels of 
monitoring. I want to work with Senator Reed to make sure that 
we have our revolving water funds. I want to make sure that 
we're doing our radon monitoring. There is a clear and 
legitimate role. But what we need to ensure is that clear and 
legitimate role has boundaries and definitions that are set in 
law by statute and that we're not pushing out regulations that 
go beyond.
    Ms. McCarthy. Yes.
    Senator Murkowski. That go beyond.
    Ms. McCarthy. Yes.
    Senator Murkowski. And that's the fear that we're seeing 
with the 111 rule and with WOTUS. Listen to our language, 
111(d), WOTUS. What the heck?
    Ms. McCarthy. I know.
    Senator Murkowski. What we're talking about is trying to 
find the balance between protection for our environment and 
care and concern for the men and women who are trying to 
support their families in economies that make sense in their 
regions.
    So I meant to go through the host of other things that I've 
got. I mentioned the backup generators. I still want to talk 
about back haul program, our rural fuel storage tanks, the 
renewable fuel standards, and, of course what we're doing with 
the fish grinding. We've had an opportunity to talk about that 
in our exchange in the office.
    I still need to get back to my constituent Paddy in 
Girdwood about fluoride.
    Ms. McCarthy. Yes.
    Senator Murkowski. And you were going to work with me on 
that. But I implore you, listen to the people across the 
country on these issues that are so critical and important to 
them. We need to find this balance. We want to work with you, 
but I think you know the pressures that are on us to just stop 
it cold, stop it cold in its tracks. There's got to be some 
path forward, but you need to understand where the people are 
coming from on this.
    Ms. McCarthy. I'll do the very best I can, and I absolutely 
share your goals. Thank you.
    Senator Murkowski. And with that, I'm going to turn my 
colleague, my ranking member.

                            SEQUESTER LEVEL

    Senator Udall. Thank you very much, Madam Chair.
    And I know you've been here a long time, so I'll try to 
just run through two quick questions here.
    Funding for EPA's day to day operations has remained close 
to the sequester level for 3 years. What have been the impacts 
on the Agency? Can you confirm that the fiscal year 2016 
request would prioritize programs that help States and that 
basic operations would still remain at fiscally restrained 
levels?
    Ms. McCarthy. Well, I think the Agency is doing the best it 
can. We are actually working very hard to make sure that we 
both maintain an adequate number of FTEs to get our job done. I 
think this budget reflects our ability to support our core 
programs and also to support some issues like the issue of 
climate that are so important for us to invest in and with the 
States.
    But the level that we're looking at here is again only a 
level that is even falling short in terms of inflation adjusted 
numbers of what we were able to do in 2006. We all know nothing 
stood still in 2006. So I really would encourage you to 
continue to support this budget at this level so that we can 
maintain the core services that are so necessary to protect 
public health and the environment.

                        TSCA REFORM LEGISLATION

    Senator Udall. And Administrator McCarthy, I know you're 
aware that the Senate Environment and Public Works Committee 
reported the Toxic Substances Control Act (TSCA) reform 
legislation yesterday on a strong bipartisan basis.
    Ms. McCarthy. Yes.
    Senator Udall. I introduced that bill with Senator Vitter 
and a broad array of bipartisan cosponsors. Our goal is to 
finally make some headway and give EPA the ability to set 
protective standards based on science to protect all Americans 
from toxic chemicals, especially the most vulnerable 
populations like pregnant women and young children. The 
American people would be shocked to know that EPA has not 
regulated a toxic chemical under the primary law in over 20 
years.
    I had a hearing on the bill. Your Assistant Administrator, 
Jim Jones, testified that the bill met all of this 
administration's principles for reform, and yesterday's markup 
involved even further key improvements.
    Can you confirm that the bill as amended meets the EPA's 
goals for TSCA reform, and are you encouraged by the bipartisan 
momentum on this bill?
    Ms. McCarthy. Well, I am aware that Mr. Jones identified a 
couple of areas where the bill fell short of the 
administration's principles, but I am also pleased that the 
most recent amendments really address those issues. I am 
encouraged that we're moving forward with a bipartisan bill.

                                ASBESTOS

    Senator Udall. Great. The poster child for TSCA reform is 
asbestos. The Fifth Circuit threw out EPA's asbestos rule in 
1991 in a case called corrosion-proof fittings, citing the 
difficult standards in the law, which led us to the situation 
today of no real Federal chemical regulation.
    Would the bill reported yesterday by the Environment and 
Public Works (EPW) committee give EPA the tools it needs to act 
on asbestos, and if a law is enacted, would EPA consider 
asbestos a strong candidate for early action?
    Ms. McCarthy. Well, EPA would have the authority to make 
asbestos what we call now a high priority chemical, and with 
that, the Agency would be on a schedule for assessing and 
making regulatory determinations for asbestos.

                     FIVE-YEAR PLAN--NAVAJO MINING

    Senator Udall. Thank you. And then just finally, I'm not 
going to ask a question on this, but as you know, the last 5 
years, there has been a 5 year working plan on Navajo mining, 
and it's a very extensive situation where there's been 4 
million tons of uranium mined on the Navajo Nation from 1944 to 
1986. And there are 500 abandoned mines, 145 in New Mexico.
    And so we're at the point we started working on this with 
you. It was way back in the House where we really got all the 
agencies focused. And so I hope, as we move down the road, we 
can get into the next 5-year plan. There's still a lot of work 
to do. And I'll submit some questions for the record, but I'm 
not going to overburden us here at this point after an 
excellent hearing.
    Senator Udall. So Madam Chair, thank you for your 
courtesies. And thank you, Madam Administrator and your 
assistant there, Mr. Bloom, who seemed to be on the ball and 
giving you some good advice.
    Ms. McCarthy. Yes, he was. Thank you.
    Senator Murkowski. And thank you, Administrator McCarthy. 
As you hear, we've got a lot of work to do.
    Ms. McCarthy. We do.
    Senator Murkowski. I was informed, just back to Senator 
Leahy's point about the woodstoves, the woodstove exchange that 
we have had underway in the State of Alaska has been made 
possible through State grant moneys, not through EPA grants.
    Ms. McCarthy. Yes.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Murkowski. We have long tried to find some 
flexibility, as you know, working with the community there, and 
it's been difficult. And I think it's made even more difficult, 
because we haven't had much assistance from the Agency in terms 
of whether it's finding support for programs like a woodstove 
exchange or otherwise. So know that continues to be an 
extraordinarily pressing problem. I know you're very up to 
speed on that.
    Ms. McCarthy. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]
               Questions Submitted to Hon. Gina McCarthy
             Questions Submitted by Senator Lisa Murkowski
    Question. At last year's EPA budget hearing, I asked how much more 
land in Alaska would be subject to the Clean Water Act as a result of 
the Waters of the U.S. (WOTUS) rule. Administrator McCarthy stated that 
she didn't know its ``exact impact on Alaska.'' Do you know now, over a 
full year later, what the exact impact on Alaska would be according to 
EPA?
    Answer. The EPA has not conducted analyses by State. As a general 
matter, the agencies believe that the proposed rule would more clearly 
define which waters are covered by the Clean Water Act, and which are 
not. In doing so, the agencies seek to reduce current uncertainty about 
whether or not particular waterbodies are, or are not, jurisdictional, 
and we expect similar clarity for Alaska.
    Question. I also asked EPA to commit to holding at least one--if 
not more--public hearings on the WOTUS rule in Alaska, so that resource 
producers and other stakeholders could express their views and concerns 
directly to the agency. You said you would ``take that back.'' Did EPA 
ever hold any public events on the WOTUS rule in Alaska, after that 
request?
    Answer. The EPA did support efforts for Waters of the U.S. (WOTUS) 
rule public hearings or meetings with interested or affected parties in 
Alaska. One such meeting was held on May 21, 2014, in Anchorage. In 
addition, the EPA Region 10 conducted three different Webinars on 
November 5-6, 2014, for tribal government representatives, the general 
public, and State and local government representatives.
    Question. In 2012, the EPA updated its national emission standards 
for reciprocating internal combustion engines in what is known as the 
RICE NESHAP rule, I worked with the EPA to find an acceptable 
definition of ``rural Alaska.'' After substantial data collection, the 
EPA determined that Alaska utilities not located in the urban Railbelt 
could not afford to buy new diesel generators and did not need to do so 
on air quality grounds.
    EPA collected substantial data in 2012 when the definition of rural 
Alaska was updated in the Reciprocating Internal Combustion Engines 
(RICE) National Emission Standard for Hazardous Air Pollutants (NESHAP) 
rule. Why can't you use that data to update the Compression Ignition 
(CI) Internal Combustion Engines (ICE) rule so that rural Alaskan 
utilities have a sensible option to replace their diesel generators?
    Answer. The EPA received a letter from the Alaska Department of 
Environmental Conservation (ADEC) in late 2014 requesting that the 
definition of remote Alaska used in the New Source Performance 
Standards (NSPS) for Stationary Compression Ignition Internal 
Combustion Engines be updated to be consistent with the definition that 
was adopted in the 2013 RICE NESHAP amendments. Since receiving the 
letter, the EPA has been working with ADEC and the Alaska Energy 
Authority (AEA) to gather additional information to explain why the 
considerations that prompted the change in the NESHAP, which applied to 
existing engines, were also applicable considerations for the new 
engines regulated by the NSPS. Based on the additional information 
provided by ADEC and AEA, the EPA is considering proposing amendments 
to the NSPS to align the definition of remote Alaska in the NSPS with 
the definition in the NESHAP.
    Question. As of October 1, 2016, EPA will no longer allow Indian 
General Assistance Program funds to be used for the solid waste 
implementation program. I recognize that this decision stems from an 
Inspector General report stating that the use of funds in this manner 
violated the letter of the law. Have you examined the definition of 
``capacity'' to determine whether there may be an administrative option 
for continuing with traditional activities in Alaska?
    If you do not believe there is a solution outside of the 
legislative process, please provide me with language that would allow 
for the back haul program to continue with traditional solid waste 
collection.
    Answer. The 2013 update to the GAP Guidance clarified the agency's 
position that funding general government services fall outside the 
purposes of GAP, which are to develop tribal government capacity to 
implement programs administered by the Environmental Protection Agency 
and the development and implementation of solid and hazardous waste 
programs for Indian lands. As reflected in the GAP Guidance, EPA 
interprets capacity building activities to include training staff; 
developing codes, ordinances, regulations, and management plans; 
creating inventories; monitoring and assessing baseline conditions; 
conducting assessments; and enhancing compliance and enforcement 
capabilities. Under the GAP Guidance, solid waste implementation 
activities funded under GAP do not include costs for delivering tribal 
government utility services, such as trash collection and recycling 
services, or the operation and maintenance of sanitation facilities.
    EPA believes this limited restriction in the use of GAP funds is 
consistent with the appropriate uses of GAP in the context of 
supporting tribal capacity for implementing environmental regulatory 
programs. Few tribes have achieved sufficient capacity to administer 
Federal environmental regulatory programs. At current funding levels, 
GAP resources are inadequate and tribes struggle to recruit and retain 
qualified environmental professionals. Tribes across the country face a 
myriad of serious environmental and human health threats; contamination 
resulting from improper solid waste management is only one facet of the 
challenges faced by tribes, and environmental protection in Indian 
Country generally lags behind the rest of the country.
    The President's fiscal year 2016 budget proposed a $31 million 
increase in GAP resources to bring total funding for tribal capacity 
building to $96 million. This increase in funding would raise the 
average allocation to tribes, allowing them to hire environmental 
professionals who can develop sustainable and robust environmental 
programs. Without this baseline environmental program capacity 
developed through GAP, EPA will continue to see limited progress 
establishing sustainable tribal environmental protection programs.
    EPA acknowledges that many tribes lack funding to provide 
sustainable utility services, including solid waste collection and 
recycling services and the operation and maintenance of sanitation 
facilities. Therefore, EPA is continuing to explore near term 
administrative flexibilities to support tribes in protecting their 
people and their environment from risks from improper solid waste 
management.
    EPA has provided a temporary, 3-year transition period (covering 
GAP awards made in fiscal year 2014, 2015 and 2016) to give grantees 
additional time before the restriction to use GAP funding for trash and 
recycling services is implemented. This transition period was 
originally 2 years, but was recently extended for another year (for a 
total of 3 years) to provide tribal grantees and EPA more time to 
explore alternative funding strategies and long-term sustainable 
solutions. Thus, EPA may award financial assistance agreements under 
GAP in fiscal years 2014, 2015 and 2016 that contain trash and 
recycling service activities through fiscal year 2017.
    The agency also is collaborating currently with Alaska Native 
Villages, other Federal agencies, and the State of Alaska to develop 
comprehensive and long-term solutions for sustainable solid waste 
management on tribal lands.

  --EPA is a member of the ``Infrastructure Task Force'' along with the 
        Indian Health Service, Department of Agriculture, Department of 
        Housing and Urban Development, and Department of the Interior's 
        Bureau of Indian Affairs. The purpose of the task force is to 
        improve Federal coordination to deliver sanitation solutions to 
        Indian Country.
  --In addition, EPA recently invested over $500,000 to assess solid 
        waste management options for tribes in Alaska, including an 
        assessment that will help estimate backhauling costs per 
        household, identify backhauling options, and support the 
        development of MOUs between tribes and backhaulers.
  --EPA is also exploring collaborative options for sustainable solid 
        waste management in Alaska. Partners include Alaska Native 
        Villages, Federal agencies (including the Indian Health Service 
        and Department of Agriculture), the Alaska Department of 
        Environmental Conservation and local agencies, businesses, and 
        not-for-profit organizations.
  --Sanitation facility operations, maintenance, and utility service 
        delivery costs (i.e., solid waste and recovered materials 
        collection, storage, transportation, and disposal costs) also 
        may be expressly authorized under programs administered by the 
        Department of Health and Human Services and the Department of 
        the Interior.

    EPA recently provided technical assistance outlining options for 
congressional action on this topic in response to a request from the 
Senate Appropriations Committee. The agency welcomes future 
opportunities to discuss the issue of environmental protection program 
implementation by tribes and to provide technical assistance to 
Congress as requested.
    Question. There are 1,600 abandoned oil tanks in Alaska that are 
safety hazards, and in some cases environmental hazards. More than a 
third of these tanks are from former Federal facilities. What resources 
does the EPA have to help us clean up and dispose of the abandoned oil 
tanks? In particular, is there any program within the EPA that can help 
the State of Alaska deal with the abandoned oil tanks that come from 
former Federal facilities?
    Answer. The EPA has Clean Water Act Section 311 (CWA 311) response 
authority, and may access the Oil Spill Liability Trust Fund (OSLTF), 
when there is a discharge, or substantial threat of discharge, of oil 
to navigable waters. EPA's authority under CWA 311 is limited to 
navigable waters in the inland zone. For EPA to exercise its CWA 311 
authority, the abandoned tanks must contain oil and that oil must have 
discharged, or be under a substantial threat of discharge, into or upon 
inland navigable waters, adjoining shorelines, or into or upon the 
waters of the contiguous zone, or which may affect natural resources 
under the exclusive management authority of the United States.
    Grant funding may be available under the Brownfields program to 
assist in certain circumstances dictated by Comprehensive Environmental 
Response, Compensation, and Liability Act (CERCLA) Sections 104, 128, 
and other relevant provisions, however, grants awarded under section 
104 are subject to a number of eligibility and ranking criteria. Among 
the statutory limitations are the following: (1) Alaska tribes are 
ineligible to apply for Brownfields competitive grant funding and (2) 
all sites contaminated with petroleum will have to satisfy the 
petroleum site eligibility requirements in addition to other 
Brownfields requirements stated in the law. For Alaska or Alaskan 
tribes awarded grants under section 128, cleaning up abandoned oil 
tanks must meet the statutory criteria for establishing or enhancing a 
voluntary cleanup program/tribal response
    Question. If the court injunction is lifted before the Inspector 
General's report is completed, would EPA proceed with its proposed 
404(c) restrictions? Do you think it's appropriate for EPA to take 
further action, if your IG is still conducting an open investigation?
    Answer. The EPA will act in a manner that is consistent with 
decisions of the district court and in support of the Inspector 
General's review.
    Question. Two of my biggest concerns with EPA's actions at Pebble 
relate to the precedent that would be set and the standard that would 
govern future preemptive actions in Alaska or other States.

  --During this administration, has EPA considered preemptive action--
        in the form of restrictions or an outright veto--under section 
        404(c) for any other project in Alaska or elsewhere?
  --Can you assure us that EPA will not target additional projects for 
        preemptive restriction or veto in the future?
  --If EPA does take preemptive action in the future, how will that be 
        decided? What standards govern whether or not EPA will listen 
        to, say, a national environmental group that wants to stop a 
        project?

    Answer. The EPA works constructively with the Corps, the States, 
and other partners to assist applicants in developing environmentally 
sound projects in cases where a discharge of dredged or fill material 
into waters of the U.S. is proposed. The procedures for implementation 
of section 404(c) provide for a science based and transparent review of 
projects, with opportunity for meaningful dialogue among the EPA, the 
Corps, the permit applicant or project proponent, the State, and the 
public. Key aspects of the 404(c) review process include an opportunity 
for discussion between the EPA and the project proponent and 
opportunities for public involvement.
    The EPA's careful use of its 404(c) authority is demonstrated by 
the fact that the agency has completed just 13 Final Determinations 
since 1972. To put this in perspective, over the same period of time, 
the Corps of Engineers is estimated to have authorized more than 2 
million activities in waters of the U.S. under the CWA Section 404 
Regulatory Program. As these numbers demonstrate, the EPA has worked 
successfully with the Corps and permit applicants to resolve concerns 
without exercising its section 404(c) authority in all but a miniscule 
fraction of cases. We expect this judicious use of 404(c) to continue.
    Question. Very few of us understand EPA's implementation of the 
Renewable Fuel Standard. It is very telling that at the hearing, 
neither of us knew what the RFS for 2014 is going to be even though the 
year has already been over for 4 full months.
    How is it that EPA has been able to finish discretionary 
rulemakings--such as Tier 3 and climate--but unable to finish the 
annual rules specifically required by Congress for the RFS, to 
establish renewable volume obligations?
    Approximately how many people at EPA are working on the RFS rule, 
which Congress required? And how many are working on EPA's climate 
rules, which Congress did not order?
    Answer. The EPA understands the importance of the RFS program, and 
is committed to the program's goals, namely, reducing emissions of 
greenhouse gases from the transportation sector and increasing American 
energy security. The agency is aware that the agricultural community, 
as well as renewable fuel producers and other stakeholders, have 
invested significant time, energy, and resources into ensuring that the 
objectives of the RFS program become a reality. Renewable fuel use has 
increased substantially over the past decade, and we have seen 
significant advancements in renewable fuel production capacity and 
efficiency. Congress intended most of the growth in the program over 
time to come from advanced biofuels, and we have also seen forward 
progress in this area, including recent advancements in the commercial-
scale production of cellulosic biofuel.
    The annual rule-setting process under the statute has proven to be 
very challenging, and we recognize that the delay in issuing the 2014 
and 2015 standards has exacerbated uncertainty in the market for both 
renewable fuel producers and obligated parties. The magnitude of the 
statutory volumes for 2014, coupled with real-world constraints in the 
ability of the marketplace to produce and utilize renewable fuels, 
introduced new and challenging issues such that by the time the 
proposal could be finalized, the facts on the ground had shifted. Any 
standard issued at that point could no longer influence market choices, 
so a re-proposal was necessary. However, the EPA is committed to 
getting this program back on the statutory timeline to provide needed 
market certainty and to support the development and use of renewable 
fuels. We recently issued a proposal to set the RFS standards for 2014, 
2015, and 2016, and the biomass-based diesel applicable volume for 2017 
(80 FR 33100, June 10, 2015); we intend to finalize these provisions by 
November 30, 2015.
    The EPA follows the authorities and responsibilities Congress 
provides under the Clean Air Act when promulgating and implementing 
rules. The work associated with the RFS stretches across several 
government agencies in addition to the EPA, including USDA and DOE. 
Within the EPA, we have 3 to 4 Full-Time Equivalent (FTE) that work on 
the RFS program's annual rules, with an additional 3 to 4 program staff 
and attorneys providing support depending on the stage of the 
rulemaking.
    Question. I am a strong believer that the EPA must use the best 
available science when making determinations that will have a major 
impact on public health. The forthcoming Integrated Risk Information 
System (IRIS) assessment related to formaldehyde is one example of 
where the EPA must be sure it gets it right particularly considering 
the critical recommendations made by the National Academy of Sciences 
after the release of the draft assessment. A 2010 UC Berkeley study of 
Chinese workers by Zhang et al. has been a key component of the EPA's 
assessment of formaldehyde. It is my understanding that, while the 
study has been criticized in the published literature, its findings 
have never been replicated.
    Given the importance of the EPA's formaldehyde assessment to public 
health and recognizing the need to ensure that the final document is 
scientifically defensible; will the Agency consider collaborating with 
a team of experts and support an independent study to reproduce the 
findings of the Zhang study before finalizing the IRIS assessment of 
formaldehyde?
    Answer. The EPA is reviewing numerous studies that examine the 
relationship between formaldehyde inhalation and potential carcinogenic 
effects. In conducting its assessment, the EPA will closely examine the 
database as to possible mechanisms by which formaldehyde might cause 
leukemia or lymphomas and include all relevant peer-reviewed published 
literature available to us consistent with the IRIS stopping rules. 
These stopping rules and the considerations for inclusion of new 
studies are described in detail at http://www.epa.gov/iris/pdfs/
IRIS_stoppingrules.pdf. The 2010 paper (Zhang et al.), and a subsequent 
2015 publication (Lan et al.), by researchers at UC Berkeley and 
collaborators from the National Cancer Institute, examine evidence as 
to whether formaldehyde exposure could cause genotoxicity in a 
particular type of cell (myeloid progenitor cells) circulating in the 
bloodstream. There are also other studies of the relationship between 
inhaled formaldehyde and circulating blood cells of other types 
(mature, non-progenitor cells).
    While it can be helpful to identify known or accepted mechanisms by 
which a chemical could cause an increased cancer risk, it is not 
necessary under EPA's Cancer Guidelines in order to determine whether a 
chemical causes a carcinogenic effect. The National Research Council 
(NRC) took a similar view in their 2014 review of the National 
Toxicology Program's Report on Carcinogens, in which the NRC wrote that 
``while it would be desirable to have an accepted mechanism that fully 
explains the association between formaldehyde exposure and distal 
cancers, the lack of such mechanism should not detract from the 
strength of the epidemiological evidence that formaldehyde causes 
myeloid leukemia.''
    The EPA's revised draft assessment will undergo public comment and 
independent scientific peer review. A major topic in peer review will 
be the overall weight of the evidence from the epidemiology studies of 
leukemia or lymphomas in exposed workers, and considering any 
mechanistic information from studies in exposed animals or humans. We 
fully expect the strengths and limitations of the existing information, 
including mechanistic data in cells and tissues relevant to leukemia 
and lymphomas, will be a focus in upcoming scientific peer reviews. 
Thus, based on there being an extensive database on formaldehyde and a 
strong public health interest in assessing the potential health effects 
of formaldehyde, the EPA believes it is appropriate to proceed with 
evaluating the existing body of data regarding formaldehyde.
    Question. While I am supportive of the goals of the EPA's IRIS 
program, we need to ensure that assessments use the best available 
science and reflect the highest standard of scientific inquiry. The 
subcommittee has been interested in the EPA's efforts to implement the 
Chapter 7 recommendations from the National Academy of Sciences (NAS) 
report that offers some ``suggestions for improvements'' in the IRIS 
process.
    The NAS recommends that, within the process, the EPA clearly 
provide two dose-response estimates, a central tendency estimate and 
its traditional lower-bound estimate that is designed to be an over-
estimate of the potential hazard. In its study, the NAS noted that a 
central tendency estimate might improve public risk communication and 
is consistent with the EPA's own guidelines. Please provide the 
subcommittee with an update on your agency's ability and commitment to 
implement this particular high priority reform in the IRIS program and 
whether the EPA intends to provide central tendency estimates for 
completed assessments.
    Answer. The EPA has provided central estimates of cancer risk in 
IRIS assessments since 2007 as recommended in the OMB memorandum M-07-
24 (Updated Principles for Risk Analysis). The IRIS Program is 
committed to continuing to include information on central estimates of 
risk and will clarify their presentation in future assessments.
    Question. Does the EPA have an established process for 
incorporating new scientific analyses and for updating IRIS assessments 
when new data is available? Within this process, what are the 
thresholds that must be met in order to initiate an update?
    Answer. One of the challenges the IRIS Program faces is to ensure 
that the most up-to-date scientific information is incorporated in 
assessments. Recently, the IRIS Program announced the establishment of 
rules for the IRIS process which transparently describe criteria for 
the inclusion of new studies during the development of ongoing 
assessments. These stopping rules and the considerations for inclusion 
of new studies are described in greater detail at http://www.epa.gov/
iris/pdfs/IRIS_stoppingrules.pdf.
    The EPA is at the beginning stages for developing a process to 
update finalized assessments that are on the IRIS database that may 
warrant reevaluation due to the availability of significant new 
research or methods after the existing assessment was completed. 
Details on the development of the IRIS update project and how the 
public can be involved will be available on the IRIS Program's Web site 
(www.epa.gov/iris).
    Question. I understand there are several outstanding trade related 
issues dealing with pesticide standards that are disrupting U.S. 
exports of specialty crops to the EU. What is the EPA doing to foster 
the expedited development of acceptable and science-based Maximum 
Residue Limits (MRLs) to expand U.S. agricultural exports?
    Answer. The EPA works diligently with numerous entities around the 
globe on matters concerning the setting of tolerances or pesticide 
residue limits to increase the likelihood that the US MRL decisions are 
harmonized with those of other nations. For example, the EPA works with 
U.S. stakeholders, European Union (EU) Member States, the European Food 
Safety Authority (EFSA) and the EU Commission to ensure that there are 
no data gaps or unnecessary lapses that prevent MRLs from being adopted 
as expeditiously as possible. EPA regularly shares its risk assessments 
and science methodology to assist the EU in establishing its MRLs. In 
ongoing negotiations with the EU on the Transatlantic Trade and 
Investment Partnership (TTIP), the EPA has worked closely with 
stakeholders to develop U.S. proposals designed to address current 
trade concerns as well as prevent future trade concerns. EPA is a 
member of the U.S. delegation to the World Trade Organization's 
Sanitary and Phytosanitary Standards Committee and is an active member 
of other interagency teams dealing with SPS issues. EPA is also very 
active in the Codex and OECD, where international standards and 
guidance for pesticides are established.
    In addition to the work with the EU, the EPA has been very 
instrumental in resolving MRL-related trade concerns with Korea, Japan, 
Indonesia, Taiwan, Mexico, Peru, Canada, New Zealand, Australia, South 
Africa, Honk Kong, Chile, India, Brazil, China, Vietnam and many other 
countries by providing policy and technical expertise on a bilateral or 
multilateral basis. In many cases, the EPA has provided its risk 
assessments as the basis for setting tolerances in these countries and 
in Codex. EPA also organizes and participates in global joint reviews 
as a means to promoting harmonized MRLs. The EPA will continue to work 
on these issues as it facilitate trade for U.S. farmers and reduces 
barriers to the adoption of pesticides with superior human health and 
environmental profiles.
    Question. In January 2015, the administration announced plans to 
develop additional regulations aimed at reducing methane emissions from 
the oil and gas industry. The upcoming EPA rulemaking immediately 
follows the new oil and gas air regulations EPA that went into effect 
in January 2015 and coincides with new ozone regulations the agency is 
pursuing that also impact the oil and gas sector. EPA is planning to 
move forward with some type of methane regulation in spite of the fact 
that EPA and academic studies estimate that methane emissions from the 
oil and gas industry have declined significantly at the same time that 
oil and gas production has skyrocketed.
    Is EPA formally engaging the States regarding potential methane 
regulations, available technology, and implementation costs?
    What is the estimated cost and staff required in fiscal year 2015 
and fiscal year 2016 for drafting a proposed rule and supporting 
materials and for reviewing public comment on the various aspects of a 
proposed rulemaking?
    Has EPA developed a ``social cost of methane''? If such a metric 
has been developed, will the agency use the metric in calculating and 
justifying the health benefits for new regulations aimed at reducing 
methane emissions from the oil and gas sector?
    Answer. The January 2015 announcement marked the beginning of the 
agency's process to develop proposed standards for methane and VOC 
emissions for new and modified sources in the oil and gas sector. As is 
the case with all of our regulatory actions, the EPA will develop a 
robust regulatory impact analysis that will include, among other 
issues, a rigorous analysis of projected future emissions from this 
sector that would be avoided by the implementation of the proposed 
standards. To ensure the agency's projections are based on the very 
best data available, EPA's analysis will take into account additional 
information from industry, States, and other stakeholders and will be 
consistent with statute, Executive order, and OMB guidance. The 
agency's analysis will be issued along with a proposal this summer and 
will be available for public review and comment.
    The EPA has also engaged with State and tribal partners early on in 
the pre-proposal stage of this rulemaking through a series of outreach 
calls aimed at helping inform the EPA of concerns from the regulated 
community. The EPA also convened a Small Business Advocacy Review Panel 
to obtain advice and recommendations from small entity representatives 
that potentially would be subject to the rule's requirements.
    Implementation of a proposed rulemaking crosses multiple fiscal 
years and regulatory programs, making resource estimates for any one 
rulemaking particularly difficult.
                                 ______
                                 
                Questions Submitted by Senator Tom Udall
                     uranium cleanup on navajo land
    Question. From 1944 to 1986, 4 million tons of uranium ore were 
mined from lands belonging to the Navajo Nation in Arizona, Utah, and 
New Mexico. More than 500 abandoned uranium mine claims remain in 
Navajo Nation, including 145 in New Mexico. EPA has been working in 
partnership with other Federal agencies to clean up contaminated sites 
and structures.

  --What progress did EPA make during the first cleanup plan?
  --What are EPA's goals for the second round of cleanup?
  --How much is set aside in the fiscal year 2015 budget for cleanup, 
        and when will estimated funding be identified for fiscal year 
        2016?
  --EPA materials note that the highest priority site is Church Rock 
        Mine near Gallup, New Mexico. What is the timeframe expected to 
        complete cleanup of this site?

    Answer. Under the initial 2008-2012 5-Year Plan, Federal agencies 
invested more than $100 million, including $50 million provided by the 
EPA, to reduce the highest risks to human health on the Navajo Nation. 
The EPA remediated 34 contaminated homes and 18 yards, provided safe 
drinking water to 1,825 families in partnership with the Indian Health 
Service, assessed 521 former mines, and conducted urgent cleanup 
actions at 9 mine claims. A full report of the accomplishments is 
available on-line: http://www.epa.gov/region9/superfund/navajo-nation/
pdf/NavajoUranium
Report2013.pdf.
    The 2014-2018 5-Year Plan builds upon the work of the first 5-Year 
Plan, makes adjustments based on information and lessons learned during 
this period, and plans the next steps in addressing the most 
significant risks to human health and the environment. Specifically, 
the EPA will remediate additional contaminated homes, increase water 
infrastructure in mining areas, clean up 46 priority mines, clean up 
Northeast Church Rock, and expand interagency outreach. For more 
information, see: http://www.epa.gov/region9/superfund/navajo-nation/5-
yr-plan-2014.html.
    The EPA also will begin cleanup of the approximately 50 Kerr-McGee 
mines located on or very near the Navajo Nation. On April 3, 2014, the 
United States entered into a settlement agreement with Anadarko 
Petroleum Corporation and some of its affiliates that provides nearly 
$1 billion for the EPA to clean up the 50 mines operated by Kerr-McGee. 
This is part of the largest environmental cleanup settlement in U.S. 
history.\1\ Use of these funds is limited to 50 of the more than 500 
abandoned uranium mines on the Reservation.
---------------------------------------------------------------------------
    \1\ Please see: http://www2.epa.gov/sites/production/files/2014-04/
documents/fraud-settlement-kerrmcgee-tronox.pdf
---------------------------------------------------------------------------
    On May 1, 2015, the U.S. Government and the Navajo Nation entered 
into a settlement agreement that provides more than $13 million to 
assess 16 additional high priority mines.\2\ This is a significant step 
forward in addressing high priority abandoned uranium mines on the 
Navajo Nation.
---------------------------------------------------------------------------
    \2\ Please see: http://www.justice.gov/opa/pr/us-will-pay-132-
million-cleanup-evaluation-16-
abandoned-uranium-mines-navajo-nation.
---------------------------------------------------------------------------
    In fiscal year 2015, the EPA estimates $4.4 million of appropriated 
resources will be available plus an additional $5.3 million in 
Superfund Special Accounts from the Anadarko settlement. The agency 
will determine fiscal year 2016 funding allocations after congressional 
appropriations legislation is enacted.
    On April 27, 2015, the EPA and the United Nuclear Corporation and 
General Electric Company (UNC/GE) entered into a settlement agreement 
that requires UNC/GE's complete the design of the Northeast Church Rock 
Mine (NECR) Site cleanup and disposal facility at the UNC Mill Site. 
This settlement is a significant milestone in the process to clean up 
the NECR Mine.
    The EPA estimates this design phase will be completed in 2 to 3 
years, and the Nuclear Regulatory Commission (NRC) estimates another 2 
to 5 years to secure the required NRC license amendment, given the time 
required for safety and environmental reviews and a potential public 
hearing. Those dates give an estimated completion of between 2019 and 
2023. These completion dates could vary, however, if circumstances do 
not unfold as anticipated.
                   mexico border water infrastructure
    Question. EPA's budget request includes $5 million for the Mexico 
Border Water Infrastructure program. This amount is the same as the 
fiscal year 2015 level. This program is critical for border States like 
New Mexico because it provides drinking and wastewater services--often 
for the first time--to underserved areas in both the United States and 
Mexico.

  --What is approximate estimated need for water infrastructure 
        projects on the U.S.-Mexico border?
  --What does EPA plan to do to meet the long-term needs of our border 
        communities?

    Answer. EPA uses the results of the last U.S.-Mexico Border Water 
Infrastructure Program (BWIP) grant solicitation to estimate existing 
border infrastructure needs. The fiscal year 2011 request for proposals 
resulted in 200 applications with an estimated construction cost of 
$800 million; funding is available for the construction of 20 of those 
projects totaling $156 million.
    U.S. border communities can and do work with their State partners 
to access funds through the Clean Water and Drinking Water State 
Revolving Funds to help meet their water infrastructure needs. The 
U.S.-Mexico Border Water Infrastructure program has built strong 
partnerships with U.S. and Mexican Federal, State, and local 
governments to address the water and sanitation needs of underserved 
border communities by leveraging resources and coordinating policies 
and procedures. As a funder of last resort, EPA's Border Environmental 
Infrastructure Program funds projects that would most likely not 
proceed without this support. EPA will continue to work with our 
program partners to maximize exiting resources while requesting funding 
at a level that is balanced by the many competing funding priorities 
across the Agency.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
                            clean power plan
    Question. Under EPA's 111(d) rule, it is my understanding that if a 
State submits a State Implementation Plan (SIP) and if EPA accepts that 
SIP, then all elements of that SIP become federally enforceable. Is 
that correct?
    With regards to Building Block 2 of the Clean Power Plan, if a 
State fails or refuses to submit a State plan under EPA's Section 111d 
rule, does EPA have Federal Implementation Plan (FIP) authority to 
require greater dispatch rates of natural gas combined cycle units in 
that State? If so, what is the source of that authority?
    With regard to Building Block 3, if a State fails or refuses to 
submit a State plan under EPA's Section 111d rule, does EPA have FIP 
authority to create and impose a renewable energy standard on that 
State? If so, what is the source of that authority?
    With regard to Building Block 4, if a State fails or refuses to 
submit a State plan under EPA's Section 111d rule, does EPA have FIP 
authority to create and impose mandates on energy efficiency? If so, 
what is the source of that authority?
    Answer. Under CAA Section 111(d), a State must submit its plan to 
the EPA for approval. States will have the flexibility to choose from a 
range of numerous approaches and measures, and this final rule allows 
and encourages States to adopt the most effective set of solutions for 
their circumstances, taking into account cost and other considerations. 
Once a State receives the EPA's approval of its plan, the plan becomes 
federally enforceable.
    To maximize the range of choices available to States in 
implementing the standards and to utilities in meeting them, the EPA 
established interim and final statewide goals in three forms: (1) a 
rate-based State goal measured in pounds per megawatt hour (lb/MWh); 
(2) a mass-based State goal measured in total short tons of 
CO<INF>2</INF>; and (3) a mass-based State goal with a new source 
complement measured in total short tons of CO<INF>2</INF>. States may 
choose between two plan types to meet their goals:

  --An Emission standards plan includes source-specific requirements 
        ensuring all affected power plants within the State meet their 
        required emissions performance rates or State-specific rate-
        based or mass-based goal.
  --A State measures plan includes a mixture of measures implemented by 
        the State, such as renewable energy standards and programs to 
        improve residential energy efficiency that are not included as 
        federally enforceable components of the plan. The plan may also 
        include federally enforceable source-specific requirements. The 
        State measures, alone or in conjunction with federally 
        enforceable requirements, must result in affected power plants 
        meeting the State's mass-based goal. The plan must also include 
        a backstop of federally enforceable standards on affected power 
        plants that fully meet the emission guidelines and that would 
        be triggered if the State measures fail to result in the 
        affected plants achieving the required emissions reductions on 
        schedule. States may use the final model rule, which EPA 
        proposed on August 3, for their backstop.

    If a State does not submit an approvable plan, then the EPA will 
implement a plan for that State. Section 111(d)(2)(A) authorizes the 
EPA to promulgate a Federal plan for any State that ``fails to submit a 
satisfactory plan'' establishing standards of performance under section 
111(d)(1). Please refer to the Agency's Legal Memorandum Accompanying 
Clean Power Plan for Certain Issues (http://epa.gov/airquality/cpp/cpp-
legal-memo.pdf) for further associated legal basis.
    In response to requests from States and stakeholders since the 
proposed Clean Power Plan was issued, the EPA proposed a Federal plan 
to implement emission guidelines for power plants under section 111(d) 
of the Clean Air Act and affected power plants that began construction 
on or before January 8, 2014. Comments on the proposed Federal plan 
requirements, identified by Docket ID No. EPA-HQOAR-2015-0199, must be 
received within 90 days after the date of publication in the Federal 
Register.
    Question. The Clean Power Plan, as unveiled in June of 2014, touts 
multi-State cooperative agreements at various points throughout the 
plan as a feasible option for States in the drafting of their State 
plans. Most recently in February 2015, EPA's Acting Assistant 
Administrator for Air and Radiation Janet McCabe told the Federal 
Energy Regulatory Commission (FERC) that multi-State agreements are a 
significant part of EPA's strategy to implement the Clean Power Plan 
(CPP).
    As such, compliance with a multi-State agreement must be required 
by a SIP that is ultimately approved by the EPA under the Clean Air 
Act. As you are aware, SIPs impose mandatory, binding obligations on 
sources in a State. Regarding compacts specifically, without a compact, 
a State might be at risk if another State involved in the compact could 
not meet its commitments. This is why the Constitution provides for 
compacts and is why they are required to be approved by Congress. As 
such, are you aware that section 102(c) of the Clean Air Act requires 
congressional consent for such cooperative agreements? On what basis 
could your agency effectively argue that section 102(c) does not apply 
to the CPP?
    Answer. The EPA provided unprecedented outreach on the proposed 
Clean Power Plan and has addressed the 4.3 million comments it received 
in response to the proposal. States will develop and implement plans 
that ensure that the power plants in their State--either individually, 
together or in combination with other measures--achieve the interim 
CO<INF>2</INF> emissions performance rates over the period of 2022 to 
2029 and the final CO<INF>2</INF> emission performance rates, rate-
based goals or mass-based goals in 2030 and thereafter. The ``multi-
State plans'' envisioned under this rule are sets of independently and 
voluntarily adopted and enforced State laws that mirror (or allow for 
interaction with) other State laws. States are allowed to cooperate in 
this way without obtaining congressional approval under either the 
Compact Clause \1\ or section 102(c) of the CAA.
---------------------------------------------------------------------------
    \1\ U.S. Const. art. I, Sec. 10, cl. 3.
---------------------------------------------------------------------------
                                 ______
                                 
              Questions Submitted by Senator Bill Cassidy
                            diesel imbalance
    Question. For refiners who produce significantly more diesel than 
gasoline, the Renewable Identification Numbers (RINS) situation is 
further exacerbated by changes implemented in the expanded Renewable 
Fuel Standard (RFS2) by EISA 2007 when diesel fuel was added. Ethanol 
can't be blended into diesel, and customers are reluctant to buy diesel 
with much biodiesel added. At most, 2-5 percent can be blended, 
depending on the location and climatic conditions. Yet, the total 
renewable factors are applied to diesel production just as to gasoline, 
leaving the obligated parties (the refiners) no choice but to purchase 
the additional RINS required with no better economic option to blend 
and separate the RINS.
    As the EPA works to finalize the proposed Renewable Volume 
Obligation (RVO) under the consent decree, are you considering the 
disadvantage placed on refiners of diesel? Gasoline and diesel should 
be decoupled in the RVO calculation.
    Answer. The EPA implemented the statute as Congress prescribed in 
such a way that the impacts on all obligated parties are proportional 
to their fuel production and import. As a result, the burden on diesel 
refiners is no different than that placed on any other refiner or 
importer. In recognition of the fact that different obligated parties 
are in different markets with different business plans, EPA provided in 
the RFS regulations a range of compliance options to all obligated 
parties. The RIN system itself was designed specifically to allow all 
obligated parties to take advantage of the flexibility of the 
marketplace to ease compliance and minimize overall compliance costs. 
If an obligated party does not choose to blend the requisite amount of 
renewable fuels themselves, they can purchase RINS on the open market 
from those that have accumulated excess RINS.
    Question. Last week during your address at IHS CERA Week you stated 
that the administration's Clean Power Plan makes economic sense because 
``you're already making those investments.'' ``Industry is right now 
investing in clean energy because it's the marketable thing to do.''
    It seems based upon your comments that you agree that industry 
decisions to invest in all forms of energy is market driven and not due 
to government mandates.
    Would you agree that market driven investments in diverse forms of 
energy to provide low cost choices to Americans is preferable to 
government mandates that may limit choice?
    Power Plan.--This $4 billion is not included in the EPA's $8 
billion budget request and would need to be authorized by Congress. 
Congress is limited by the discretionary spending caps in the Budget 
Control Act. Does the Agency have a proposal for where it believes the 
additional funding should come?
    Answer. Climate change induced by human activities is one of the 
greatest challenges of our time. It already threatens human health and 
welfare and our economic well-being, and if left unchecked, it will 
have devastating impacts on the United States and the planet. Power 
plants are the largest source of carbon dioxide emissions in the United 
States, accounting for roughly one-third of all domestic greenhouse gas 
emissions. The proposed rule builds on what States, cities and 
businesses around the country are already doing to reduce carbon 
pollution and establishes a flexible process for states to develop 
plans to reduce carbon dioxide that meet their needs.
    The fiscal year 2016 President's budget includes an incentive fund 
for States choosing to go beyond the Clean Power Plan, which will be 
finalized this summer. The Clean Power State Incentive Fund will 
provide $4 billion to support States exceeding the minimum requirements 
established in the Clean Power Plan for timing of State plans and the 
pace and extent of carbon pollution reductions from the power sector. 
This funding will enable States to invest in a range of activities that 
complement and advance the Clean Power Plan, including efforts to 
address disproportionate impacts from environmental pollution in low-
income communities and support for businesses to expand efforts in 
energy efficiency, renewable energy, and combined heat and power 
through, for example, grants and investments in much-needed 
infrastructure. The President's budget includes funding for the Clean 
Power State Incentive Fund within the mandatory budget (please refer to 
page 1132 of the fiscal year 2016 President's budget appendix found at 
https://www.whitehouse.gov/sites/default/files/omb/budget/fy2016/
assets/epa.pdf).
    Question. Last week during your address at IHS CERA Week you stated 
that the administration's Clean Power Plan makes economic sense because 
``you're already making those investments.'' ``Industry is right now 
investing in clean energy because it's the marketable thing to do.''
    It seems based upon your comments that you agree that industry 
decisions to invest in all forms of energy is market driven and not due 
to government mandates.
    Would you agree that market driven investments in diverse forms of 
energy to provide low cost choices to Americans is preferable to 
government mandates that may limit choice?
    Answer. Response same as previous question above.
    Question. Since 2010, President Obama has failed to pass his 
signature cap-and-trade legislation even with a previous Democratically 
controlled Senate. Among the concerns was that the expensive, onerous 
mandates placed on manufacturers and energy producers would destroy 
jobs and lead to increased energy costs for consumers and businesses.
    Heeding the concerns of the American people, Congress chose not to 
pass such destructive and far-reaching mandates. Undeterred, President 
Obama has taken an alternate route of pursuing his cap-and-trade and 
other energy policies through back door regulations at the 
Environmental Protection Agency (EPA).
    In October, EPA will issue a final rule to regulate ground level 
ozone. However 2 months ago, EPA finalized the implementation rule for 
the 2008 standard--75 parts per billion--but just announced in November 
2014 that it will lower that 2008 standard to a level between 65 and 70 
parts per billion. Since 1980, the United States has reduced ozone 
pollution by 33 percent according to EPA's own data.
    As I mentioned in my opening statement, I have spent nearly my 
entire professional career in medicine. When working with patients 
determinations on the appropriate treatment to administrator or 
medications to prescribe must be based upon what we know and not 
necessarily what we think. I had an opportunity to see many patients 
suffering from the effects of unemployment and how that impacts their 
quality of life and health.

  --Would you agree that employment is an important factor in 
        evaluating the mental and/or physical health of an individual?
  --How did the Agency consider those health impacts when it was 
        determining ``projected'' health outcomes of a revised ozone 
        standard?
  --Does EPA examine the interconnectivity between employment and 
        mental health issues such as depression and suicide or the 
        linkage between employment and heart attack or stroke when it 
        examines health benefits of a proposed rule?

    Answer. The U.S. Supreme Court ruled in Whitman v. American 
Trucking Associations, 531 U.S. 457 (2001), that under section 109 of 
the Clean Air Act, the EPA may not consider the costs of implementation 
in setting National Ambient Air Quality Standards (NAAQS). The Court 
indicated specifically that EPA was not to consider potential job 
losses due to implementation of a standard, even if such job losses 
``might produce health losses''. 531 U.S. at 466. Moreover, if EPA were 
to consider such costs, it would be ``grounds for vacating the NAAQS, 
because the Administrator had not followed the law''. Id. at n. 4.
    Based on a significantly expanded body of scientific evidence, 
including more than 1,000 new studies since the last review of the 
standards, the EPA is proposing that the current primary ozone standard 
set at a level of 0.075 ppm is not requisite to protect public health 
with an adequate margin of safety, and that it should be revised to 
provide increased public health protection.
    Question. In addition, Dr. Julie Goodman from the Harvard School of 
Public Health wrote an op-ed in the Wall Street Journal last year where 
she said, ``Most studies examining connections between ozone and health 
effects do not adequately account for smoking or other factors such as 
diet and exercise that could contribute to diseases attributed to 
ozone. By not fully considering these other factors, the EPA assumes 
that ozone causes more health effects than what the science supports.''
    How did EPA factor in diet and exercise when considering health 
outcomes of a lower ozone standard?
    Answer. In evaluating the mechanisms by which ozone causes health 
effects, the EPA uses a weight of evidence approach and evaluates all 
types of studies, many of which adequately account for factors such as 
smoking. There is a large body of evidence that has examined the 
association between ozone-related respiratory health effects and diet, 
smoking, and obesity (related to exercise). These associations are 
discussed in the Integrated Science Assessment (section 8.4, pp. 8-30, 
http://cfpub.epa.gov/ncea/isa/recordisplay.cfm?deid=247492#Download).
    Question. The lowered standard that the EPA is proposing (between 
60 and 70 ppb) is very close to levels of ozone that are found 
naturally in some regions of the country. For example, the ozone level 
at Big Bend National Park in southwest Texas, where there are no 
industrial facilities, is 71 ppb.
    EPA's models have shown that decreasing human-made sources of ozone 
could actually lead to increased natural ozone in some areas. This 
happens because ozone formation is complex, and nitrogen oxides both 
form and destroy ozone. By controlling human sources of nitrogen 
dioxide to achieve lower ozone levels, many parts of the country may 
not meet current ozone standards solely because of naturally formed 
ozone.
    Because the Clean Air Act only mandates that EPA review not revise 
the ozone standard, how is EPA taking into consideration the fact that 
there are parts of the country that have not and will not meet the 1997 
standards, the 2008 standards, and any potential new standard offered 
by the Agency?
    Answer. In the Policy Assessment, the EPA analyzed the influence of 
background ozone and concluded that areas with the highest background 
influence are locations in the intermountain western United States. On 
most days, and at most locations, the background influence on observed 
ozone is expected to be much lower than the revised ozone NAAQS levels 
that have been proposed.
    The EPA's improved modeling approaches allow us to more accurately 
simulate how ozone levels change in response to reducing nitrogen 
oxides. Nitrogen oxides (NO<INF>X</INF>) cause both the formation and 
destruction of ozone. As a general rule, as NO<INF>X</INF> emissions 
reductions occur, ozone values may increase in areas that tend to have 
much lower observed ozone concentrations, while higher ozone values 
would be expected to decrease. A more detailed discussion of this 
phenomenon can be found in the Policy Assessment (section 2.2). http://
www.epa.gov/ttn/naaqs/standards/ozone/data/20140829pa.pdf
                                 ______
                                 
              Questions Submitted by Senator Jeff Merkley
        electronic product environmental assessment tool (epeat)
    Question. Why has the administration taken the action to 
specifically delete EPEAT?
    Answer. The administration developed the Executive order (E.O.) to 
allow the use of multiple private-sector registries or methods that 
currently exist and any new ones that may be developed in the future, 
provided they meet the sustainable electronics provisions in the E.O.
    Question. Can you reassure us that the Federal Government will 
continue to adhere to using EPEAT standards in its procurements?
    Answer. Section 4 (e) of the new Executive order directed the 
Council on Environmental Quality to issue Implementing Instructions to 
provide more clarity for Federal purchasers on how to achieve 
compliance with the Executive order. These Instructions were issued on 
June 11, 2015, and are located here: https://www.whitehouse.gov/sites/
default/files/docs/eo_13693_implementing_instructions
_june_10_2015.pdf.
    On Page 65 of the implementing instructions, EPEAT is identified as 
the only tool that currently meets the sustainability mandate specified 
in the E.O.
    Question. There is currently no standard that evaluates 
environmentally sound lifecycles of electronics that has any comparable 
worldwide market share to EPEAT. Given this, why does the 
administration not continue to require EPEAT until an adequate 
alternate structure is in place?
    Answer. EPEAT is identified in the implementing instructions for 
E.O. 13693 as the only tool that currently meets the sustainability 
mandate specified in the E.O.
    Question. Can you assure me and the public that next steps in 
issuing implementing instructions and guidance will be transparent and 
open to public comment?
    Answer. The E.O. Implementing Instructions were issued on June 
11th, 2015 and are available at: https://www.whitehouse.gov/sites/
default/files/docs/eo_13693_
implementing_instructions_june_10_2015.pdf.
    Within 90 days of the issuance of the Instructions, the EPA is 
required to provide updated guidance on recommended specifications, 
labels, and standards that designate environmentally preferable 
products and services, in consultation with the Office of Management 
and Budget (OMB) and the Council on Environmental Quality (CEQ). EPA is 
developing interim recommendations to post on its Web site.
    Question. I would urge the administration to make clear in the 
Executive order implementing instructions that are expected to be 
issued in the first week of May by Kate Brandt, the country's Federal 
Sustainability Officer, that EPEAT is an accepted compliance pathway 
for Federal agencies for electronics' procurement.
    Answer. On Page 65 of the instructions, EPEAT is identified as the 
only tool that currently meets the sustainability mandate specified in 
the E.O.
    Question. Finally, I ask the administration to ensure that EPA, 
Council on Environmental Quality, and the Office of Federal 
Sustainability promulgate guidance and directives to ensure that EPEAT 
is used in Federal procurements, and that future development of 
``Ecolabels'' by the EPA also adheres to at least a minimum standard of 
EPEAT.
    Answer. EPEAT is identified in the implementing instructions as the 
only tool that currently meets the sustainability mandate specified in 
the E.O. The application of the EPA Guidelines to the electronic 
products sector will allow a fair and objective process to evaluate any 
upcoming non-governmental eco-labels and standards addressing these 
products for consideration for use in Federal procurement.

                          SUBCOMMITTEE RECESS

    Senator Murkowski. Thank you. And with that, we stand 
adjourned.
    [Whereupon, at 4:31 p.m., Wednesday, April 29, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
